<html>
<title> - THE 9/11 COMMISSION RECOMMENDATIONS ON PUBLIC DIPLOMACY: DEFENDING IDEALS AND DEFINING THE MESSAGE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  THE 9/11 COMMISSION RECOMMENDATIONS ON PUBLIC DIPLOMACY: DEFENDING 
                    IDEALS AND DEFINING THE MESSAGE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 23, 2004

                               __________

                           Serial No. 108-261

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-211                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 23, 2004..................................     1
Statement of:
    Beers, Charlotte, former Under Secretary of State for Public 
      Diplomacy and Public Affairs, U.S. Department of State; 
      Keith Reinhard, president, Business for Diplomatic Action, 
      and chairman, DDB Worldwide; Gary Knell, president and CEO, 
      Sesame Workshop; Dr. Rhonda S. Zaharna, associate professor 
      of public communication, American University; and Hafez Al-
      Mirazi, Bureau Chief, Al Jazeera Washington Office.........   118
    Harrison, Patricia de Stacy, Acting Under Secretary of State 
      for Public Diplomacy and Public Affairs, Department of 
      State; Kenneth Tomlinson, chairman, Broadcasting Board of 
      Governors; Charles ``Tre'' Evers III, Advisory Commission 
      on Public Diplomacy, Commissioner; and Jess T. Ford, 
      Director of International Affairs and Trade, Government 
      Accountability Office......................................    53
    Kean, Thomas H., Chair, National Commission on Terrorist 
      Attacks Upon the United States (the 9/11 Commission); and 
      Jamie S. Gorelick, Commissioner, National Commission on 
      Terrorist Attacks Upon the United States (the 9/11 
      Commission)................................................    19
Letters, statements, etc., submitted for the record by:
    Al-Mirazi, Hafez, Bureau Chief, Al Jazeera Washington Office, 
      prepared statement of......................................   201
    Beers, Charlotte, former Under Secretary of State for Public 
      Diplomacy and Public Affairs, U.S. Department of State, 
      prepared statement of......................................   122
    Evers, Charles ``Tre,'' III, Advisory Commission on Public 
      Diplomacy, Commissioner, prepared statement of.............    78
    Ford, Jess T., Director of International Affairs and Trade, 
      Government Accountability Office, prepared statement of....    85
    Harrison, Patricia de Stacy, Acting Under Secretary of State 
      for Public Diplomacy and Public Affairs, Department of 
      State, prepared statement of...............................    56
    Kean, Thomas H., Chair, National Commission on Terrorist 
      Attacks Upon the United States (the 9/11 Commission); and 
      Jamie S. Gorelick, Commissioner, National Commission on 
      Terrorist Attacks Upon the United States (the 9/11 
      Commission), prepared statement of.........................    26
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    14
    Reinhard, Keith, president, Business for Diplomatic Action, 
      and chairman, DDB Worldwide, prepared statement of.........   129
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Information concerning Muslim Public Affairs Council.....    45
        Prepared statement of....................................     3
    Tomlinson, Kenneth, chairman, Broadcasting Board of 
      Governors, prepared statement of...........................    70
    Zaharna, Dr. Rhonda S., associate professor of public 
      communication, American University, prepared statement of..   192

 
  THE 9/11 COMMISSION RECOMMENDATIONS ON PUBLIC DIPLOMACY: DEFENDING 
                    IDEALS AND DEFINING THE MESSAGE

                              ----------                              


                        MONDAY, AUGUST 23, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, LaTourette, Platts, 
Kucinich, Maloney, and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Sarah 
D'Orsie, deputy clerk; Andrew Su, minority professional staff 
member; and Earley Green, minority chief clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``The 911 Commission Recommendations on 
Public Diplomacy: Defending Ideals and Defining the Message,'' 
is called to order.
    In the war against trans-national terrorism, we are losing 
ground on a crucial front: The battle of ideas. Words, not just 
weapons, fuel revolutions; and the language of political 
liberty and economic opportunity can inspire the victory of 
life over death, faith over fatalism and progress over 
stagnation throughout the Muslim world.
    The next generation of potential terrorists can be stopped 
with books rather than bombs, if we help empower and mobilize 
the moderate majority with the vocabulary of hope.
    Public diplomacy, the cultural exchanges, educational 
programs and broadcasts used to convey U.S. interests and 
ideals to foreign audiences, helped win the cold war. But 
according to the State Department's advisory group on public 
diplomacy for the Arab and Muslim world, ``the United States 
today lacks the capabilities in public diplomacy to meet the 
national security threat emanating from political instability, 
economic deprivation and extremism.''
    In the rhetorical arms race for the hearts and minds of the 
Muslim world, some ask how the most technologically advanced 
Nation on earth is being outgunned by a movement largely based 
in caves.
    In our previous hearings on public diplomacy, witnesses 
described a lack of strategic coherence in U.S. efforts to 
communicate with global audiences. Successful cold war 
structures have been stripped bare and scattered throughout a 
State Department bureaucracy with other priorities. Since 
September 11, 2001, the State Department and the Broadcasting 
Board of Governors have increased the reach and frequency of 
communications on U.S. policies. New, more aggressive 
approaches, seek to counter anti-American stereo types and 
caricatures dominating the news cycles.
    But the 9/11 Commission found those efforts still 
inadequate to meet the threat. They called for ``short term 
action on a long range strategy'' to compete as vigorously on 
the ideological battlefield as we do on the military and 
intelligence fronts. The Commission recommended a clearer 
message in support of the rule of law, human rights, expanded 
opportunity and political reform, and they said we needed to 
expand regional satellite broadcasting and rebuild scholarship, 
exchange and library programs targeted to young people.
    The Commission's call for reinvigorated public diplomacy 
adds urgency to the debate already underway over the 
appropriate mix of U.S. communication tools. Some say mass 
audience programming based on popular music and other modern 
advertising techniques lacks necessary depth. Others say the 
old, more academic methods targeting societal elites will not 
reach the larger body politic. The Commission calls for 
expansion of both approaches.
    So we meet this afternoon to examine those recommendations 
more fully, determine which can be done by the executive branch 
alone and which require legislative implementation, and to 
assess the strengths and weaknesses of public diplomacy as a 
tool against future terrorist attacks.
    We are aided in that discussion today by Governor Thomas 
Kean, chairman of National Commission on Terrorist Attacks Upon 
the United States, Commission member Jamie Gorelick, and two 
other panels of extremely qualified and experienced witnesses. 
We thank them all for participating and we look forward to 
their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.001
    
    [GRAPHIC] [TIFF OMITTED] T8211.002
    
    Mr. Shays. At this time, the Chair would recognize the 
ranking member, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman, and 
welcome to Governor Kean and also to Ms. Gorelick.
    Today's hearing is the third hearing this subcommittee has 
held on public diplomacy in the Middle East. We've heard from 
numerous State Department officials, media experts, academics, 
and representatives from various advisory commissions. We've 
heard repeatedly that the hatred of the Muslim world toward the 
United States is growing.
    However, the truth is that no matter how many hearings we 
hold on this topic, our public diplomacy in the Middle East is 
a failure and will continue to fail without changes in our 
foreign policy.
    The problem is not that there are cultural differences or 
different value systems. It is not a failure of the quantity or 
quality of our message. Our public diplomacy fails because it 
is derived from failed foreign policy. We must change our 
foreign policy if we're going to have credibility in talking 
about changing hearts and minds.
    In its final report, the 9/11 Commission made the following 
recommendation, ``when Muslim governments, even those who are 
friends, do not respect these principles, the United States 
must stand for a better future. One of the lessons of the long 
cold war was that short term gains in cooperating with the most 
repressive and brutal governments were too often outweighed by 
long-term setbacks by America's stature and interests.''
    The Commission is correct in that our foreign policy 
strategy continues to reflect cold war mentalities. During the 
cold war, the United States supported brutal dictatorial 
governments throughout the world because they were strategic 
allies. Democratic and Republican administrations both 
supported with military aid regimes in Iraq and Iran where 
those regimes were torturing citizens and suppressing 
democratic aspirations.
    Our policy of arming Mujahedin before and during Soviet 
invasion in Afghanistan led to the Taliban having the ability 
to flourish that afterwards. The people of the Muslim world 
remember that the United States chose to support these brutal 
regimes against them. Recent polls such as those conducted by 
Zogby international show that Arab respondents do understand 
and do respect American values. But they do not see American 
policy reflecting those values. They saw the horrible picture 
of pictures at Abu Ghraib prison. They read about the treatment 
of detained prisons at Guantanamo Bay, so why are we surprised 
that there's harsh feelings toward the United States?
    Perhaps we have a credibility problem in the Muslim world 
because people there believe that we have treated them poorly. 
If we say there's a gathering threat of weapons of mass 
destruction and we launch an unprovoked attack on another 
country to capture those weapons and it turns out that no vast 
stockpiles were found, our actions look highly questionable at 
best and our credibility as a Nation is undermined.
    Who's going to believe America the next time a U.S. 
Secretary of State makes a presentation at the United Nations 
calling for the world community to participate in a plan for 
war? No amount of American pop music Fulbright scholars or 
athlete exchange programs is going to conceal the false 
pretences of a war. Today we'll hear again how much more money 
and attention should be spent to influence public opinion in 
the Arab world and to carry a message of hope to Muslims.
    Mr. Chairman, I think that our national policymakers have 
to match words and deeds or pretty soon the United States will 
lose all credibility, not just in the Middle East but 
throughout the entire world.
    Let's figure out what the message is before we discuss how 
best to beam it across satellites to the Middle East. Let's 
have the makers of our foreign policy come testify and be held 
accountable for their decisions.
    I want the thank the witnesses here today and I want the 
thank Governor Kean and Ms. Gorelick for the honest assessment 
they've made of our Nation's vulnerabilities in the 9/11 
Commission Report, and I hope that your testimony today and 
continued advocacy will help to spearhead serious deliberation 
and reform by this and future generations and Congresses.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T8211.003

[GRAPHIC] [TIFF OMITTED] T8211.004

[GRAPHIC] [TIFF OMITTED] T8211.005

[GRAPHIC] [TIFF OMITTED] T8211.006

[GRAPHIC] [TIFF OMITTED] T8211.007

    Mr. Shays. I thank the gentleman. Governor Kean and 
Commissioner Gorelick, the subcommittee has less members, so 
I'm going to have each of them make statements. Then we will 
get to you real quick. Thank you. At this time, the Chair would 
recognize the vice chairman, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate your 
efforts at having what is the first hearing on examining the 
need for a clear and coordinated public diplomacy strategy. The 
9/11 Commission Report contains numerous recommendations to 
change both within the government structure and government 
policy, and one key aspect of the report deals with public 
diplomacy or the ability of the United States to project its 
public image and accurately portray our Nation to people around 
the world.
    Public diplomacy is a campaign of words and images and it 
can be easily lost. To portray the United States as the great 
Nation that it is, we must set the tone and message or more 
radical groups will define our message. In the 9/11 Commission 
Report, it States that to Muslim parents, terrorists like bin 
Laden have nothing to offer their children but visions of 
violence and death. In this war of diplomacy and public policy, 
we have to recognize that the Islamic extremists in which we 
are defending ourselves promote a culture of celebrating and 
glorifying death both of innocent lives of suicide bombers, and 
certainly that means our task is just greater than just 
defining who we are.
    I look forward today to hearing from the witnesses and 
hearing their recommendations on public policy and reform. 
Thank you.
    Mr. Shays. At this time, the Chair would recognize the 
gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you. And welcome to Governor Kean and 
Ms. Gorelick. I just left another hearing on financial 
institutions where Vice Chairman Hamilton is testifying. I join 
my colleagues, and really, the American public, in thanking you 
for your bipartisan, thoughtful work.
    The 9/11 Commission Report is more popular than Harry 
Potter. So I hope people not only read the Commission report, 
but will work to implement all of its suggestions, and along 
with my colleague Chris Shays and others, we have formed a 
caucus that will be working together to really support the 
implementation of the recommendations.
    I, for one, believe that the Commission should be extended 
with legislation and it will be the first bill that I introduce 
when we go back into session in a bipartisan way.
    I know that you're fund-raising, but I do not believe that 
your important work should depend on bake sales. I would prefer 
Governor Kean and Ms. Gorelick, for you to be spending your 
time testifying and not having to fundraise with private money. 
Your work is tremendously important. Nothing is more important 
than securing America and taking every step to prevent 
terrorist attacks.
    So I hope that this will be as successful as the 
legislation that Chris Shays and I authored creating the 
Commission and really supporting the legislation to extend the 
operation of the Commission until you've got all of your work 
done.
    Again, I thank you for an excellent job and I look forward 
to your testimony today. Your Commission report really mirrors 
what the advisory group on public diplomacy, the General 
Accounting Office, the Heritage Foundation and the Council on 
foreign relations, they all issued reports stating that a 
greater emphasis is needed by our government on public 
diplomacy, that we cannot allow the terrorists to define who we 
are and what we stand for.
    So I would request permission to place in my long opening 
statement but I look more forward to hearing your comments 
today and thank you for your many contributions so far.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T8211.008

[GRAPHIC] [TIFF OMITTED] T8211.009

[GRAPHIC] [TIFF OMITTED] T8211.010

[GRAPHIC] [TIFF OMITTED] T8211.011

    Mr. Shays. I thank the gentlelady. I need to confess that 
we don't have four witnesses before us today. Starting out 
mispronouncing both your names here could set a bad precedent, 
Governor Kean and Gorelick, so we'll call them that and nothing 
else.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I was going to 
call them that any way.
    But I want to first begin by praising you and Ranking 
Member Kucinich for holding this hearing. One of the most 
intriguing things about the 9/11 report has been all the 
different assets and different things that the United States 
has done and needs to do since September 11, and I, like Mrs. 
Maloney, Governor Kean, I was just down at the Financial 
Services Committee with your sidekick, Congressman Hamilton, 
and I wanted to praise not only the both of you, but all of the 
Commission members for all of the good work you have done in 
the last month not only in getting the tough work done and 
doing your work in a bipartisan way, but also taking all of 
your valuable time to explain it to us and to the American 
people, and I really think that you have been on television 
probably more than the summer Olympics and you've done I think 
a really good, workman-like job.
    Mr. Chairman, I think it's important that we talk about the 
public policy considerations in the Middle East. I just want to 
harken back to Congressman Hamilton and what we learned in the 
Financial Services Committee meeting that you were at, Mr. 
Chairman, and Mrs. Maloney was at as well.
    One of the astounding things as I read the 9/11 report was 
the fact that this whole enterprise on September 11th cost less 
than $500,000; that it took less than $500,000 for 19 madmen to 
create such terror and devastation in the United States of 
America, and what we learned and what you learned and was 
shared with us today is that even this paltry sum of half a 
million dollars wasn't financed, as many believe, by Osama bin 
Laden. It didn't come from his personal wealth or inherited 
wealth. It came from charities, Islamic charities, both witting 
and unwitting, I think the report indicates.
    As we look at the ramifications of particularly Title III 
of the Patriot Act, as we try to ramp down and get handle on 
some of the finance that goes into terrorism, we now have 
partnership agreements with 94 countries in an attempt to 
control the flow of money to terrorists, and I think your 
report gives us further evidence and ammunition as we pursue 
that.
    But its relevance to this hearing is that when you're 
dealing with 94 other separate and sovereign States, a number 
of them have Islamic majorities, and if we are going to be 
successful, we can go about it the old way and just go out and 
catch the bad guys and follow the paper trail and find their 
money, or we can attempt to do it a different way, and that's 
where public diplomacy comes in, and I'm very hopeful and I'm 
looking forward to your testimony today, again, all of the 
outstanding work you've done already.
    But our challenge needs to be not only to deal with this 
generation of terrorists in an effective way, but to make sure 
that the next generation of terrorists at least as a competing 
message that is believed by the United States of America, and I 
thank you very much for being here today and I yield back.
    Mr. Shays. I thank the gentleman. At this time, the Chair 
would recognize Mr. Platts before going on to our witnesses.
    Mr. Platts. Thank you, Mr. Chairman. I just want to add my 
words of thanks for your very important and very substantive 
work. We're a grateful Nation because of your efforts, and 
hopefully we'll be successful in moving forward and embracing 
your ideas.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. Before swearing the 
witnesses in, I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open 3 days for that purpose. 
Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    As is the practice of this committee, the full committee 
and subcommittee, we swear in all our witnesses. I only 
chickened out once in umpteen number of years with, Senator 
Byrd, but if you all would stand, raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative. Once of the nice things about our 
subcommittee work is we can give the Members 10 minutes to 
question. We can get into an issue a little more in-depth, and 
we will do that, and Governor Kean, thank you and we would love 
to hear your statement.

  STATEMENTS OF THOMAS H. KEAN, CHAIR, NATIONAL COMMISSION ON 
TERRORIST ATTACKS UPON THE UNITED STATES (THE 9/11 COMMISSION); 
  AND JAMIE S. GORELICK, COMMISSIONER, NATIONAL COMMISSION ON 
 TERRORIST ATTACKS UPON THE UNITED STATES (THE 9/11 COMMISSION)

    Mr. Kean. Chairman Shays and Ranking Member Kucinich, and 
distinguished Members, I want to thank, by the way, the 
chairman and the ranking member and the other committee members 
for their very thoughtful statements. I might say that the 
chairman and other members of this committee were some of the 
first to spot the seriousness of the problem that finally 
resulted in September 11, and I thank them for their foresight 
on this matter. There weren't many people out there with you at 
the time. Thank you.
    We are honored to appear before you today. We want to thank 
you and the leadership of the House of Representatives for the 
prompt consideration you are giving to our recommendations. 
We're grateful to you and the leadership of the entire House. 
The findings of this Commission were endorsed by all members, 
five Republicans and five Democrats.
    You see we share a unity of purpose on the Commission, and 
we'd like to call upon Congress and the administration, even in 
this very difficult season, to display the same spirit of 
bipartisanship as we collectively seek to make all our country 
and our people safer and more secure.
    Terrorism is the No. 1 threat to the national security of 
the United States. Counterterrorism policy must be the No. 1 
priority for the President, and as any President and that's any 
President and this Congress, or perhaps any Congress and that's 
going to go for the foreseeable future.
    We cannot succeed against terrorism by Islamic extremist 
groups unless we use all elements of national power: That means 
military power, it means diplomacy, it means intelligence, 
covert action, law enforcement, economic policy, foreign aid, 
homeland defense, and yes, of course the subject of today, 
public diplomacy. If we favor any of those tools while 
neglecting others, we leave ourselves vulnerable and weaken our 
national effort and by the way that's just not our view. That 
is the view of every single policymaker we interviewed. You 
cannot then succeed against terrorism with one tool alone.
    I give you an example. When Secretary Rumsfeld testified 
before us he said he can't get the job done with the military 
alone. For every terrorist we kill or capture, he said, more 
can rise up to take their place. He told us the cost benefit 
ratio is simply against us.
    Cofer Black told us: You can't get the job done with the 
CIA alone.
    What became clear to us as we heard these leaders answered 
so many other is that the U.S. Government remains geared to 
cold war threats who are--we're still, in many cases, talking 
about great power threats. Our government still today is not 
geared to deal with the threat from transnational Islamic 
terrorism. The threat to us today is not from great armies 
anymore. The threat to us comes from the beliefs, those beliefs 
that propelled the 19 young men to take their lives simply to 
do the greatest possible harm to us.
    The military struggle is part of that struggle we face, but 
if you think about it, far more important is the struggle for 
the war of ideas. As much as we worried about bin Laden and al 
Qaeda, and we do worry about that, we should worry far more 
about the attitudes of tens of millions of young Arabs and 
hundreds of millions of young Muslims.
    Those who sympathize with bin Laden represent, in the long 
term, a far greater threat to us. They represent the well 
spring to refresh the doctrine of hate and destruction, no 
matter how many al Qaeda members we capture or kill. For those 
reasons, Mr. Chairman, we welcome the opportunity to this 
afternoon to address this question of public diplomacy.
    The United States is heavily engaged in the Muslim world 
and will be for many, many years to come. The American 
engagement is resented. Polls in 2002 found that among 
America's friends, I'll take Egypt for example, Egypt is the 
recipient of more USAID for the past 20 years than any Muslim 
country by far. Only 15 percent of the people in Egypt have a 
favorable opinion of the United States of America. In Saudi 
Arabia, another friend, that number goes down to 12 percent and 
two-thirds of those surveyed in 2003 in countries from 
Indonesia to Turkey were very or somewhat fearful and they were 
fearful that they feared the United States might attack them, 
they really believe this.
    At this time, the support for the United States has 
plummeted. Polls taken in Islamic countries just after 
September 11 suggested something quite different. At that 
point, people felt we were doing something right and there was 
a lot of support for us at that point, even in the Arab world, 
for our fight against terrorism. But by 2003, the bottom had 
fallen out of that support in most of the Muslim world. 
Negative views of the United States among Muslims which had 
been largely limited to the countries in the Middle East have 
spread. Since last summer, favorable ratings for the United 
States have fallen from 61 percent to 15 percent in Indonesia 
and from 71 percent to 38 percent among Muslims in Nigeria.
    Now, what we know is that many of these views are 
uninformed. At worst, some of these views of course are 
informed by cartoonish stereotypes, the coarse expression of 
fashionable Occidentalism among intellectuals who caricature 
U.S. values and policies. Local newspapers and a few 
influential satellite broadcasters like al Jazeera often 
reinforce such Jihadist theme that portrays the United States 
again and again as simply antiMuslim.
    The small number of Muslims who are committed to Osama bin 
Laden's version of Islam, we can't dissuade them. We've got to 
jail them or we've got to kill them. That's the bottom line. 
But, the large majority of Arabs and Muslims are opposed to 
violence, and with those people, we must encourage reform, 
freedom, democracy and perhaps, above everything else, 
opportunity, even though our own promotion of these messages 
will, for a while, be limited in its effectiveness simply, 
because we are the one carrying the message.
    Muslims themselves often reflect on such basic issues as 
the concept of Jihad, the position of women in their societies, 
the place of non-Muslim minorities. We can promote moderation. 
We can ensure its ascendancy. Only Muslims themselves in their 
own countries can do that.
    So the setting is difficult. Forty percent of adult Arabs 
are illiterate. Two-thirds of them are women. One third of the 
broader Middle East lives on less than $2 a day. Less than 2 
percent of the population has access to the Internet. The 
majority of older Arab youths who express the desire to 
emigrate, particularly to Europe.
    So this is fertile ground. This is fertile ground for any 
ideology which is dedicated to hate. This is the kind of soil 
in which it can grow best.
    So in short, the United States has to defeat an ideology, 
not just a group of people, and we must do so under very 
difficult circumstances. How can the United States and its 
friends help moderate Muslims combat these extremist ideas?
    As a Commission, we believe the United States must define 
its message. We believe that we have to define what we stand 
for and we believe that simply have to offer an example of 
moral leadership. We've got to be committed and show we're 
committed to treating people humanely to abiding by the rule of 
law and being generous and caring about our neighbors. You see, 
America and its Muslim friends can agree on respect for human 
dignity and the belief in opportunity.
    To Muslim parents, terrorists like bin Laden have nothing 
to offer their children, as I've said, except violence and 
death. America and its friends have a crucial advantage. As we 
can offer if you're a parent in the Muslim world, we can offer 
you a vision, and that vision can give their children a better 
future. If we heed the views of thoughtful leaders in the Arab 
and Muslim world, we believe we can seek a moderate consensus.
    Our vision of the future should stress individual 
educational and economic opportunity. Our vision includes 
widespread political participation and contempt for 
indiscriminate violence. It includes respect for the rule of 
law, openness in discussing differences, and tolerance for 
opposing points of view.
    Where Muslim governments, and this even those goes for 
Muslim governments that happen to be friends, when they do not 
respect these principles, the United States must stand for a 
better future. One of the lessons of the cold war was that the 
short term gains in cooperating with the most repressive and 
brutal governments was sooner-or-later outweighed by long-term 
setbacks for America's stature and interests.
    Above all, we as Americans must not be hypocrites about our 
own values. American foreign policy is part of this message. 
America's policy choices have consequences. Right or wrong, it 
is simply a fact that American policy regarding the Israeli 
Palestinian conflict and American actions in Iraq are dominant 
staples of popular commentary across the Arab and Muslim world.
    Now it doesn't mean that the United States choices have 
been wrong. It means those choices must be integrated with 
America's message of opportunity to the Arab and Muslim world. 
Neither Israel, or hopefully a new Iraq, will be safer if 
worldwide Islamic terrorism grows any stronger.
    So the United States has to do a lot more to communicate 
its message. Reflecting on bin Laden's success in reaching 
Muslim audiences, as the chairman mentioned this, Richard 
Holbrooke wondered how can a man in a cave out-communicate the 
world's leading communications society? Deputy Secretary of 
State Richard Armitage worried to us that Americans have been 
exporting our fears and our anger, not our vision of 
opportunity and hope.
    Just as we did in the cold war, we need to defend our 
ideals abroad and we need to defend them vigorously. America 
does stand for values. And at our best, we always have stood up 
for those values. If the United States does not act 
aggressively to define itself in the Islamic world, the 
extremists are going to define us instead.
    Recognizing that Arab and Muslim audiences rely on 
satellite television and radio, the government has begun some 
promising initiatives in television and radio broadcasting to 
the Arab world, Iran and Afghanistan. These efforts are just 
now beginning to reach some large audiences. The Broadcasting 
Board of Governors has asked for larger resources. They ought 
to get them.
    The United States should rebuild the scholarship, exchange 
and library programs that reach out to young people and offers 
them knowledge and hope and where such assistance, by the way, 
is provided, it should be identified as coming from the 
citizens of this United States.
    At this point, I'll turn to my colleague and one of the 
most productive and intelligent and hardworking members of the 
Commission, Jamie Gorelick.
    Mr. Shays. Thank you.
    Ms. Gorelick, you have the floor.
    Ms. Gorelick. Thank you, Mr. Chairman and thank you, Mr. 
Chairman.
    Mr. Shays. I think that your mic may not be on.
    Ms. Gorelick. There we go. As I said, thank you to both 
chairmen. Let me reiterate just a few points and then address 
the rest of our agenda. As Chairman Kean said, we are losing 
the war of ideas. We clearly need to kill or capture those who 
are most hardened against us, but the challenge for us here and 
the subject that we are addressing today is how to separate out 
the vast majority of Muslims who are currently providing 
support and affirmation to those who are the hardened 
extremists. That is the challenge and we have concentrated on 
the first category at the expense of the second.
    The message I hope you take away and that we hope you take 
away from our report is that if we do not address the second 
challenge, the threat that we face, will pale in comparison to 
the one that we face today because we will have created and 
sustained tremendous hostility against us across the Muslim 
world.
    We have lost the high regard of most of the world, and that 
is a stunning conclusion of our report and we have to regain 
it.
    Our national security depends on this as much as it does on 
the might of our military and on the capability of our 
intelligence community. The problem is that we, as Secretary 
Armitage said, we are exporting our fears and our anger. We are 
not seen through any lens but the lens of our military and the 
lens of corporate America--we are more multifaceted than that. 
We have fought to protect the lives of Muslims. We have helped 
in innumerable ways in the Muslim world and that message has 
not gotten through.
    We have receded in so many ways from the work that we did 
in the 1990's and before.
    So what can we do? First of all, to Congressman Kucinich's 
point, we have to do the right thing. We have to be moral. We 
have to be generous. We have to be right-thinking. We have to 
abide by the rule of law. We have to communicate the very best 
values of our country that have been such a source of strength 
for us in our foreign policy before this. It is astounding and 
striking how the support for us has hemorrhaged in the last few 
years. The world was behind us after September 11. Even the 
Muslim world sustained support for us invading Afghanistan, and 
that support has hemorrhaged. This has real consequences for 
our national security.
    We need to do the right thing.
    Second, as Chairman Kean said, we have to offer an 
alternative vision of hope and opportunity. I'm going to 
address the specifics of that in a moment. Third, we have to 
communicate or we will be defined by others and we have 
unilaterally disarmed in our communication. We have receded 
from the world. We have slashed the budgets of libraries. We 
have cut our speaker's bureaus. We have canceled book 
subscriptions. We have cut our staff at the very time when we 
need to be building up our presence and our outreach to the 
Muslim world.
    The United States and its friends have to stress 
educational and economic opportunity. The United Nations, we 
say, has rightly equated literacy as freedom. The international 
community is moving toward a concrete goal to cut the Middle 
East region's illiteracy rate in half by 2010 and it targeting 
particularly women and girls, and it is supporting programs in 
adult literacy. Help is needed to support even the basics like 
textbooks to translate more of the world's knowledge into local 
languages and libraries to house such materials.
    Education about the outside world and other culture is 
extremely weak. For example, there is very little emphasis in 
Arab education systems about American history, European history 
or Chinese history. There needs to be a broader understanding 
of cultures outside the world of Islam. We should add, of 
course, that Americans too need to better understand the world 
of Islam. Our own education system in this respect will need 
improvement.
    More vocational education is needed in trades and business 
skills. The young people of the Muslim world need to have a 
vision of opportunity. Right now, most young Muslims are in the 
hands of madrassas, many of which teach hate and don't 
communicate or teach usable skills. You can hardly fault a 
parent for sending a child to one of those schools when there 
is absolutely no alternative and we have not helped to create 
those alternatives.
    We need education that teaches tolerance, the dignity and 
value of individuals, respect for different beliefs across the 
board.
    We recommend specifically that the U.S. Government offer to 
join with other Nations in funding what we call an 
International Youth Opportunity Fund, where funds would be 
spent directly for building and operating primary and secondary 
schools in those Muslim States that show their own commitment 
to be sensibly investing in public education.
    A second agenda is opportunity and jobs. Economic openness 
is essential. Terrorism is not caused by poverty. Indeed, many 
terrorists come from fairly well-to-do families. Yet, when 
people lose hope, when societies break down, when communities 
fragment, those are the breeding grounds for terrorism. 
Backward economic policies and repressive political regimes 
slip into societies that are without hope where ambition and 
passions have no constructive outlet.
    The policies that support economic development and reform 
have political implications. Economic and political liberties, 
after all, tend to be linked. Commerce, especially 
international commerce, requires ongoing cooperation and 
compromise, the exchange of ideas across cultures and peaceful 
resolution of differences through negotiation and the rule of 
law.
    Economic growth expands the middle class which can be a 
constituency for further reform. Successful economies rely on 
vibrant private sectors, which have an interest in curbing 
indiscriminate government power. The bottom line is those who 
control their own economic destiny soon desire a voice in their 
communities and in their political societies.
    We have very specific recommendations about free trade, 
which you will see reflected in our written statement, but we 
believe that a comprehensive U.S. strategy to counter-terrorism 
has to include economic policies that encourage development, 
more open societies and opportunities for people to improve the 
lives of their families and enhance prospects for their 
children's future.
    Mr. Chairman, let me sum up for both of us and for the 10 
members of our Commission by coming back to the question that 
you put to us about the successes achieved by and the 
challenges facing U.S. public diplomacy efforts.
    The issues surrounding public diplomacy have been with us 
since September 12, 2001. It has not gone without notice in the 
policy community, among commentators, among pollsters, among 
individuals familiar with the Muslim world itself that public 
diplomacy is critical, and yet our assessment of where we are 
in this regard is not a good one.
    Public diplomacy is hard. It faces enormous challenges and 
has had few successes in recent years, but we are convinced 
that we cannot win this war on Islamist terrorism unless we win 
the war of ideas. We need to win the hearts and minds of a 
great swath of the globe, from Morocco to Malaysia. We need to 
understand public diplomacy in the proper sense of the word. 
It's not just how you deliver the message. It is the message 
itself. It is the message of our values which have been such a 
strength for this country over centuries.
    We have to communicate that America is on the side of the 
Muslim world, that we stand for political participation, 
personal freedom, the rule of law, and that we stand for 
education and economic opportunity.
    Of course, we cannot take on the responsibility for 
transforming the Arab and Muslim world. It's up to courageous 
Muslims to change their own societies, but they need to know 
that we are on their side. They need to know that we are there 
to help. They need to know that we offer a competing vision. 
They need to know about us and what we have in common with 
them.
    And with that we would be pleased to respond to your 
questions.
    [The prepared statement of Mr. Kean and Ms. Gorelick 
follows:]

[GRAPHIC] [TIFF OMITTED] T8211.012

[GRAPHIC] [TIFF OMITTED] T8211.013

[GRAPHIC] [TIFF OMITTED] T8211.014

[GRAPHIC] [TIFF OMITTED] T8211.015

[GRAPHIC] [TIFF OMITTED] T8211.016

[GRAPHIC] [TIFF OMITTED] T8211.017

[GRAPHIC] [TIFF OMITTED] T8211.018

    Mr. Shays. Thank you very much. Before turning it over to 
Mr. Turner to ask the first set of questions, I thought I would 
basically see your three points in a statement, so I got a 
little lazy and didn't write down the specifics. The last one 
was communication. The first two?
    Ms. Gorelick. The first two were ``do the right thing,'' 
that is, be what we know we can be.
    Mr. Shays. And the second was?
    Ms. Gorelick. The second was ``offer an alternative vision, 
and that is about education and hope.''
    Mr. Shays. Thank you. The vice chairman has 10 minutes, Mr. 
Turner.
    Mr. Turner. I want to thank both the Commissioners for all 
of our work and delivering a wonderful bipartisan report that 
gives us a road map of some great recommendations and raises 
some very important issues that we have to address as a 
country, and I appreciated the Commission's availability as the 
Congress has sought to have hearings throughout August to be 
able to learn more about the recommendations so that action can 
be taken.
    Many times, when people talk about the war on terrorism 
they talk about the cold war, and one benefit that we had in 
the cold war is that communism never declared itself a 
religion. Communism claimed to be for the same things we were 
for.
    In the war of ideas they claimed that their people had 
freedom, that they were leading them to prosperity, that they 
were, in fact, enjoying equality, and the failure of communism 
was in the reality that they were not delivering as an ideology 
those things they were claiming they were providing their 
people. Our system, though, surpassed it.
    In this instance, we have a much difference situation in 
that we must not have battles of ideology and ideas. We have a 
group that has taken a religion and a religious aspect in its 
promotion of its ideas.
    I'm very leery of the discussions of polls of the United 
States--of how the United States is perceived because I would 
venture in my understanding is if you looked at the polls of 
not just September 12th, but September 11th that the United 
States would have had a great deal of more support in the 
Middle East and among Muslims be viewed more favorably on 
September 11th than we are now, and yet September 11th on the 
day that it occurred, our positive perception was probably 
better than it is now and yet it occurred. We were attacked by 
19 young men who killed 3,000 Americans. So the goal has to go 
beyond just the issue of polls and how we're perceived because 
when we're perceived positively, we can still be subject to 
attack.
    Governor Kean, you said how can a man in a cave 
outcommunicate us, and that was a great quote that you 
repeated, and our task though is difficult in that we're trying 
to change ideas instead of just trying to communicate ideas 
that are in line with beliefs that may be held.
    In my opening statement I referenced that in the 9/11 
Commission Report, you identify the culture of celebrating 
death of innocents and of suicide bombers, the emergence of 
global terrorism and how that feeds together.
    Our task is much greater than just defining who we are in 
doing the right thing and declaring that we do the right thing. 
You note in your report that the United States has liberated 
Kuwait, fed Somalies, protected Kosovo, Muslims in Bosnia, and 
yet we are perceived as being antiMuslim, but at the same time, 
even if it's not an issue of hate, we have this issue in the 
Middle East that we're up against of the glorification and 
celebration of death.
    And Ms. Gorelick, you talked about the issue of and we 
can't do this alone.
    So my question goes to who are going to be our partners, 
even if we're communicating who we are and we're actively using 
diplomacy so that the opinion polls show us more positively. 
The support for the emergence of global terrorism and Islamic 
extremism comes from the cultural issue of this glorification 
of death of killing of innocents and killing through suicides 
which, in our culture, is outrageous, considered unthinkable. 
Where do you see that we can get our help?
    Mr. Kean. Well, the first place, you know, it's such a 
perversion of the Muslim religion. To hurt innocents in Muslim, 
in the Koran is a great sin. These are people who have taken 
part of a great religion, perverted it to their own purposes 
and are trying to use it in that way, and it only finds fertile 
ground where there are areas of total despair and hate and all 
of that. It's a very small group of people.
    I guess what we're saying today is that as long as, one, we 
don't want it to get any longer, and two, we don't want these 
people who currently sympathize with them to go any further. In 
fact, we'd like them to understand what a perversion this is.
    People don't know that we've helped Muslims around the 
world in that part of the world. We haven't told them and 
nobody else is going to tell them. We haven't told our story.
    You reference quite correctly the cold war. Well, in the 
cold war you know how much this country spent on information 
agencies and cultural exchanges and education opportunities 
and? I mean we were very, very concerned how people thought of 
us because we recognized in that battle it was a battle for 
ideas and so when Communism got ready to fall, the people in 
Eastern Europe wanted to emulate the United States because they 
thought so much more of our values and ideals which we had 
communicated to them this one way or another than they did of 
the ideals of the former Soviet Union.
    I think we have to go back to some of those communication 
techniques, recognizing the fact that libraries are important, 
that schools are important, that cultural exchanges are 
important, that we have to have one consistent message of who 
we are. Spending money in communications doesn't do much good 
unless you have a consistent message. I don't think we've 
developed that yet of who we are. But I think your point is 
well taken and I think we can, but we can move ahead and I 
think we can communicate. We've done that in the past. We have.
    If there's any revolutionary force in this world, it is and 
always has been democracy. If we communicate that and show 
these people that democracy can give their children the kind of 
lives that they can't even dream about now in the society they 
live in, I think that's what we're about.
    Ms. Gorelick. Concretely, I would answer your question this 
way. You might think about reversing some of the changes we 
made in the 1990's where we literally shut down our support for 
libraries. We actually threw people out of very, very popular 
outlets that reflected on Western society. We cut back exchange 
programs. We cut back scholarship programs. We had a very 
substantial cadre of public information officers that we cut 
back.
    We shut down the U.S. Information Agency. My suggestion to 
you would be to look at the tools that we used so successfully 
in the cold war to communicate albeit a different message, to 
see how we might use those tools in this context.
    Second would be education. We have ceded the one vehicle 
that can affect the hearts and minds of young people to those 
who are filled with hate. The school systems are spewing out 
hate and hate-filled information so that by the time a young 
person graduates from these schools, he has no skills, no hope 
and believes that everyone who is defined as the enemy by 
someone else--and that would include everyone in this room and 
everyone in this country just about--has no right to live.
    We recognize that this is a daunting task and the fact that 
it is mixed up in religion does not make it different or 
easier.
    On the other hand, we aren't doing the most fundamental 
things to address the problem. This is why we recommend 
challenging Muslim countries to invest in public education and 
helping them.
    You ask who our partners would be in this. If we create 
essentially a challenge fund for education, that could be an 
enormous help in showing a vision of hope and opportunity.
    Mr. Shays. At this time, the Chair would recognize Mr. 
Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman and Governor Kean and 
Ms. Gorelick, thank you for your testimony. I found your 
statement, your written statement, very compelling and, there's 
a lot of questions that I have as a result of reading it and so 
I'll begin.
    The 9/11 Commission Report states that, ``one of the 
lessons of the cold war was that the short term gains in 
cooperating with the most repressive and brutal governments 
were too often outweighed by long-term setbacks for America's 
stature and interests, on page 376. The report will note on 
page 376, American foreign policy was part of the message. 
America's policy choices have consequences.''
    In light of that, to the Governor and to Ms. Gorelick, it 
doesn't make sense to focus on public diplomacy before 
reevaluating American foreign policy.
    Mr. Kean. Well, I think what we've suggested is we have to 
start elevating American foreign policy in these areas and 
promoting things we all believe in as a country. I honestly 
believe that democracy is the most revolutionary concept. As 
long as we promote it, as we understand it, and have always 
practiced it in this country, and when we don't try to moderate 
governments that are seen by their own people as antidemocratic 
and oppressive, it doesn't mean we're going to go attack 
somebody as a friend of ours in a number of days who is helping 
us militarily or whatever, but we can use our influence in 
those governments quite openly to try and moderate them.
    We've got to do that, for instance, in Saudi Arabia. It 
just can't be about oil anymore. It's got to be about something 
very different. It's got to be about how to change that society 
and bring a lot of the people in, all those thousands and 
hundreds of thousands of young people who are under 18 and are 
roaming the streets without an education. We've got to do 
something about that, and we've got to encourage the government 
of Saudi Arabia to do something about that. I think we can as a 
government--not do it overnight, but start moving people in 
hopefully the right direction. Some of these leaders I hope 
will see that it's not only in our State's interest, but very 
much in their interest if they're going to eventually survive 
as a family or as a government.
    Mr. Kucinich. So there is, of course, different ways to 
communicate that message. One is force. Another one is 
diplomacy. Some people mistake force for diplomacy. Do you have 
anything to say about that?
    Mr. Kean. Well, my own view is force is not diplomacy, and 
we are seen now as--when we gave the statistics and said that 
people in other countries, namely countries dominated by Muslim 
populations, a large percentage of the population feels the 
United States is going to attack their country.
    Mr. Kucinich. I thought that was a telling part of your 
testimony. As a matter of fact, I underlined it. Why do you 
suppose there are so many nations around the world where people 
are fearful the United States is going to attack them? What's 
that about?
    Mr. Kean. Well, it strikes me that we have not communicated 
our values or our message or our purposes very clearly to those 
people, and that's what I hope one of the things we're talking 
about today.
    Ms. Gorelick. We begin our recommendations, as you know, 
with a chapter called ``What To Do: A Global Strategy,'' and, 
while much of the focus of public reaction has been on how to 
do it, which is the next chapter--and that has to do with how 
we organize ourselves in the United States--we thought it was 
very important to begin with a look at our foreign policy in 
key countries around the world, Pakistan and Saudi Arabia, for 
an example.
    We also note that the places where terrorism will flourish 
are the failed states of the world. And, therefore, a major 
emphasis of our foreign policy has to be the prevention of 
failed states.
    Mr. Kucinich. Back to Governor Kean, one of the things that 
I've been concerned about is that the reason why we may now 
have so many countries that fear us is because the message that 
was received in many of those countries is that the United 
States did not have a proper justification for attacking Iraq. 
I'm not asking you to make an evaluation of that, but I know 
that's, you know, beyond the scope of the committee's work, but 
I just wanted to share with you that one of the difficulties 
that this country will have is that if you go back to September 
11 with so many people in America believing then and believing 
now that Iraq had something to do with September 11, that 
perception then fed into support for military action against 
Iraq. Those perceptions remain today and also in other 
countries, they perceive it differently.
    It's my thinking that if we do not really have a kind of a 
clear understanding in this country of what the very basis of 
our policy is, how in the world are we going to be able to 
construct a foreign policy which has some kind of symmetry? 
It's actually called coherence.
    So I just offer that for your consideration. I mean, I 
think that what the Commission has done is to lay out some of 
the challenges which this country faces, but all too often in 
our national experience we look at image problems as being 
public relations problems and not having deeper-rooted policy 
derivatives. And so a book by Boorstin called ``The Image'' 
speaks directly to that. We think that somehow if we can change 
the way things appear, that we have addressed the underlying 
realities, and I think that we're still in that, in terms of 
our national experience with respect to how September 11 is 
interpreted by a large segment of the American public.
    And it's very difficult, Mr. Chairman, to do what the 
members of this Commission have done, because what you've done 
is to bring together people who have differences of opinion, 
different partisan backgrounds. You've been able to meld kind 
of a statement of where we need to go, and I think that you're 
addressing the issue of public diplomacy and calling for an 
inspection of it, of essentially the historical roots of what 
we're talking about. It sets us on the path toward resolution, 
and it's really terrific that you've been able to do what.
    Now, I'll just try to ask one more question, if I have a 
moment here, and that is that U.S. Muslim groups have argued 
they should have had more input into the Commission's final 
report. Were Arab American groups consulted during the 
Commission's investigation? And do you think that U.S. Muslim 
organizations should be involved in U.S. public diplomacy in 
the Middle East?
    Mr. Kean. I think unless we make use of the diversity of 
this country, we lose one of our greatest weapons, and Arab 
Americans obviously, as Muslim Americans even more, are now 
very, very important part of the fabric of this country. We 
should use them in every way possible.
    Ms. Gorelick. I would second that and just say for the 
record that we consulted very widely. I'm sure that time 
constraints did not permit us to consult with every possible 
group, but many Muslim American groups were on our list of 
consultants. I would second what Tom Kean has said, which is 
one of our great strengths is our diversity. That is, we are 
uniquely--among all the countries in the world--because of our 
immigrant background, able to reach out people of different 
types, ethnicities, races, much more effectively, or we should 
be. We need to counsel with those who can help us in framing 
our message, because the substance of our message should be a 
good one. Yet, we have failed to communicate to the rest of the 
world our highest values.
    Mr. Kucinich. Thank you.
    Mr. Shays. I thank the gentleman.
    At this time the Chair would recognize Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. Again, my appreciation 
for your work and your participation here today with our 
Commission members.
    We certainly have a lot of work to do, and as you reflect 
the good work of our Nation over many years, not just in 
liberating 50 million Muslims in Iraq and Afghanistan but 
Kosovo, Bosnia, Somalia, that message isn't being understood or 
fully appreciated in the Muslim community, and somehow to get 
the message that I personally receive when I visit Iraq, with 
about seven other members, we were up in Kirkuk and meeting 
with the city mayor and counsel, and in the opening statement, 
the mayor of Kirkuk, his opening statement to us to bring back 
to our constituents was please go home and thank the mothers 
and fathers of America who are willing to send their children, 
our soldiers, to Iraq to liberate his people.
    Mayor Mustafo understood that we were willing to put the 
lives of our courageous men and women on the line to protect 
ourselves and to liberate him and his people. Clearly, that's 
not a message, though, that's understood and appreciated.
    One of your recommendations is about us doing good work, 
like the library and scholarship programs, exchanges. We 
continue to fund, maybe not in those direct programs, the 
level--we fund a lot of money through the United Nations, and 
do you think it's something we need to evaluate, because in 
making your recommendation that we should do these things and 
then say where such assistance is provided, it should be 
identified as coming from the citizens of the United States, 
that we give a lot of money for school books for Palestinians, 
but it's not necessarily seen as from America.
    Maybe it's through, you know, the U.N. and UNESCO, whether 
it be education, health care, food. Do you think we need to 
reevaluate how we fund programs through the United Nations, 
which then is seen as the help versus directly, you know, 
engaging in these nations so it's clearly an American 
initiative and not a U.N. initiative?
    Mr. Kean. Well, as we have seen among our enemies, the U.N. 
is viewed almost as badly as we are, and they blow up the 
headquarters and they would like to destroy the U.N. and the 
community of nations as well. I'm sure it's important we keep 
on working through the United Nations, but we also have a 
number of programs in our government that don't have anything 
to do with the United Nations, and very often, whether it's 
charities or whatever, we give a lot of aid, and American 
people are extraordinarily generous, and we don't identify as 
such. People don't know that's where the aid came from. We find 
that out. I mean, people don't know that the food they got and 
the emergency and the help or the medical care, whatever, comes 
from the United States of America, and we're saying, you know, 
fine, we'd like to expand that kind of help, but people ought 
to know where it comes from. People ought to know this is 
because of the generosity of the people in this democracy and 
that we have an outreach around the world for people who are in 
need and always have had. And we just should not, at this point 
in our history, hide our light under a bushel.
    Ms. Gorelick. If I could add two comments to that. If you 
look at our recommendations with regard to Afghanistan, we make 
a couple of observations that might be of help in addressing 
the question that you just asked. First of all, we note that 
the State Department presence in Afghanistan is woefully 
understaffed and that we don't really fully utilize all the 
resources of our government but mainly rely on our military 
resources there.
    Second, we heard when we visited CENTCOM from the war 
fighters that in both Iraq and Afghanistan what they find most 
effective is their ability to deliver assistance. They were 
proudest of and thought they'd made the most progress with 
clinics that they'd opened. We heard again and again that money 
for assistance is rigidly allocated on the ground. Somebody who 
is on the ground, in a community--with the face of an 
American--can only give money for a certain purpose and not for 
another. Individual initiatives are blocked almost entirely.
    I think if you are interested in trying to address this 
question, I would dive down to the ground. I would ask the war 
fighters who are on the ground in communities in Iraq and 
Afghanistan how do you bridge the gap? How do you relate to the 
mayor of Kirkuk? What can you do for that community? What are 
the resources at your disposal? How much flexibility do you 
have to present a good face of America, to be of real concrete 
help?
    I think that we are too hide-bound and too inflexible and 
we are not using all the tools that we have when we have 
wonderful Americans on the ground in communities that are war-
torn and that need our help. I think we have those tools and 
we're just not using them.
    Mr. Platts. I concur with your observation that direct 
assistance--and heard that as well--in Afghanistan and Iraq, in 
Iraq where our soldiers were able to use some of the 
confiscated funds to then go back and have the flexibility unit 
by unit to give $1,000 to help improve a drainage ditch, 
whatever it may be, that direct impact, and that kind of 
relates to one of the challenges for us here in Congress in 
achieving this effort of better public diplomacy. It's 
something that the military, the war fighters told us when we 
voted on the supplemental last fall and about $18\1/2\ billion 
of that--I think $87 billion or so, if I remember my numbers, 
was humanitarian assistance, nonmilitary-related, and that was 
some of the really most criticized part of us for political 
reasons.
    And we're helping to, you know, rebuild fire companies or 
firehouses in Iraq, but we're not doing it for our own. Yet, 
your recommendation is then what the war fighters are telling 
us, that humanitarian assistance that would make a difference 
in the everyday lives of those Iraqis or Afghanis, that is as 
important to winning the war on terror as the military effort.
    And so if I take that message that internally Congress 
needs to stop politicizing public diplomacy efforts versus 
military and diplomatic efforts, but it's also a part of the 
same effort and truly approaching it in a more statesman 
approach and putting the partisan politics aside and just doing 
the right thing.
    A followup question--I think we're still OK on time--is in 
doing the right thing, a challenging--one of your 
recommendations is leading by example and being the moral 
nation that we are and not including in our relations around 
the world--including with some of our allies, and I 
specifically am interested in your comments regarding Saudi 
Arabia and how--are there--is the Commission--is there specific 
things that we should do differently with Saudi Arabia given 
their internal challenges and how they treat their own citizens 
that we should consider as someone who is an ally of that 
nation?
    Mr. Kean. Well, we do make a number of recommendations 
specifically about Saudi Arabia in our report, and the basic 
bottom line is it just can't be about oil anymore. I mean, oil 
is a very important part of it. It's got to be, because the 
need of the industrialized world for oil is still so great, but 
that can't be all it's about, because if anything--we 
identified countries, Saudi Arabia, Pakistan, Afghanistan, that 
if any of those three areas went their own way, that would 
become a terrible breeding ground for terrorists.
    So what we suggest is helping the leaders of Saudi Arabia 
to move in the direction that many members of the Royal Family 
would now like to move anyway and giving them a little push and 
helping them to move in a direction which is in their best 
interest and which will give their citizens greater freedom, 
will move women in an area toward being a greater part of the 
overall economy and the overall country and to help them move 
in those directions with our rhetoric, with our policy, with 
our people on the ground. If we do that, we believe we have a 
much better chance of having a stable Saudi Arabia to work with 
in the future, and if we don't, we fear the consequences.
    Ms. Gorelick. I would only add this: We call Saudi Arabia a 
problematic ally, and the problems, we say, are on both sides. 
We have a great deal of mutual mistrust right now between these 
two countries and our peoples, and that has to be dealt with in 
a very straightforward way.
    First, as Chairman Kean said, it can't be about oil. It has 
to be about a mutually adopted and shared set of goals, 
economic opportunity, a commitment to political and economic 
reform. We tried to do our part by clearing the air of some of 
the rubbish that was out there about what the Saudi Government 
had and had not done, what the Saudi Royal Family had and had 
not done. But the fact of the matter is that 15 of the 19 
hijackers were Saudi.
    The fact of the matter is that a great deal of the 
charitable money or money that has flowed to bin Laden comes 
from Saudi sources. The fact of the matter is that the support 
of the madrassas and other school systems around the world that 
are harmful, a lot of it comes from Saudi Arabia.
    Since the attacks on their soil, as Chairman Kean said, 
they have gotten religion, if you will, and we are much more 
closely aligned, but we need to do what we can to create 
incentives for the leadership of Saudi Arabia to stay on a path 
toward greater democracy and toward reform. Otherwise, we will 
have a huge failed state in Saudi Arabia, and the dangers there 
could be enormous.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Shays. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, and thank you for 
your testimony.
    As a former teacher, I was most interested in your focus on 
education, and I truly believe we can win any military war, but 
as long as madrassahs are teaching hatred and raising well-
educated young people who are willing to be suicide bombers, we 
will never be safe.
    I'm most interested in how you foresee or how you predict 
or how do you suggest that we create alternative educational 
systems in Saudi Arabia and Afghanistan, Pakistan and other 
Muslim countries. Do you see this as a--you said, an 
international effort? But as you mentioned, the coalition of 
the willing, whether it's the United Nations or the commitment 
to Afghanistan, it becomes primarily an American focus. How do 
we stop Saudi Arabia from fund these madrassahs? How much money 
do we now spend in our foreign aid for education? Do you think 
we should shift our entire foreign aid package toward education 
and providing young people with an education? You really cannot 
fault a Muslim mother for sending her child to a madrassah if 
that's the only form of educational system that is there for 
her to approach.
    Also Governor Kean and Ms. Gorelick, you focused a great 
deal in your original report, 9/11 Commission Report, on 
coordinated responses. How do you see the educational 
coordinated response from the United States? Should it be under 
the State Department, under the education department? Where 
would this be? How would we implement what we obviously need to 
do? Thank you.
    Mr. Kean. Well, first of all, as another former teacher, I 
think we come from the same place. You can't do it alone. 
There's no question about it, and these countries have to see 
it in their own interest to do it. I mean, part of our job is 
to convince them of that. By the way, not all madrassas teach 
hate. It would be a mistake to say that. But some of them still 
do, and those are the ones of course who are most at fault, but 
even the madrassas who don't teach hate don't teach much else. 
People don't get the kind of skills that they need to have to 
earn a living at these schools.
    Therefore, we've got to make these countries understand 
that to have a trained work force of intelligent young people 
is the best thing they can do to give their whole society a 
better life, and certainly to give their young people usable 
skills for the modern world. That's in their interest, even 
more than it's in our interest. It's the right argument, so it 
should be an argument that we can make with conviction. That's 
the only way I think we're going to move on this one is to 
really convince these countries--we can help. I hope we've got 
moneys out there that we can use to help them, but they've got 
to be committed to it and it's got to be their initiative and 
it's got to come from their governments, because we can't do it 
otherwise.
    Ms. Gorelick. The Saudis already spend a great deal of 
money on schooling, and the pressure from us has to be for them 
to examine what their output is from those schools, measured in 
what the skills are that the young people are learning and in 
the values that they're coming out of those skills with.
    There's been, I would say, a Faustian bargain struck, which 
is that the schools have been given over as if their output had 
no effect on the Saudi way of life. You can't produce unskilled 
people filled with hate and not expect that to have a 
consequence for the stability of your country. And we make that 
observation, and we would encourage the Saudis to examine their 
own education system.
    We're now giving a tremendous amount of aid to Pakistan, 
and we would like to see some incentives there to create an 
education system that shifts direction. As you would know 
better than anyone, this is a generational challenge. The 
problems that we've identified have been in place for decades, 
and they're not going to be turned around in a minute. This is 
a generational challenge.
    Mrs. Maloney. You testified that you would support an 
international youth opportunity fund, an educational fund. Do 
you foresee this, for example, in Pakistan, to use one example, 
as working with the government to set up a youth opportunity 
educational system that a parent then could decide whether they 
go to a madrassah or go to the youth educational opportunity 
system? Do you see literally creating an alternative to the 
madrassah educational system?
    Mr. Kean. Yes, we do. I mean what we're pushing for 
basically is that there should be choice of a public school. I 
mean, that's served our democracy extraordinarily well, the 
public school, and what we're suggesting is that these states 
have to be encouraged to have a system of their own public 
schools where there would be an alternative to the madrassas.
    Mrs. Maloney. Do you have a sense of how much of our tax 
dollars in foreign aid goes to education now in developing 
countries? And how much of a foreign exchange program do we 
have for higher education for Muslims? Do we have a specific 
program to promote exchange between American and Muslim 
students?
    Mr. Kean. I'll say as a college president, I don't know of 
one.
    Mrs. Maloney. You don't know of one.
    Mr. Kean. There may be one out there, but nothing I'm aware 
of, and I think as a college president, I would be aware, 
certainly, if there was anything large.
    Ms. Gorelick. We do say that the changes that were made in 
the 1990's in our education programs, in our scholarship 
programs, in our exchange programs to essentially withdraw from 
the field have had a deleterious effect on our ability to help 
in this most critical area. You could double our public 
diplomacy budget, for example, for the cost of a B-1 bomber, 
and it would probably be a good investment. I don't know the 
specific answer to your question, although I'm sure it's 
readily available, but our general assessment is that we need 
greater emphasis on education funding.
    Mrs. Maloney. I'd like to know how you see this being 
coordinated. We have many different departments in our 
government doing diplomacy. We have the State Department. We 
have USAID. We have our U.N. commitments. We have many 
commitments and many different areas, none of which is 
coordinated.
    One of your themes is that we needed a coordinated 
intelligence effort. Do you believe we need a coordinated 
diplomacy effort? All of these various budget lines are 
independent, and they make their decisions independently. And 
it's not coordinated. Do you feel that in the public diplomacy 
area we should come together under one heading and have a 
discretion under one person to focus more on the goals that you 
outlined, specifically education and diplomacy?
    Mr. Kean. Well, I assume--and Commissioner Gorelick knows a 
lot more about it than I do--but I assume the public diplomacy 
area should be coordinated under the State Department. I would 
think that's part of their job.
    But as far as the education goes, not for each area of 
government to know what the area is doing would be a great 
mistake, and that would have to be coordinated. We didn't make 
recommendations as to how to coordinate it. We sort of set out 
what we thought the ideals were, and we thought the 
administration in Congress--we'd find out the ways to do it.
    Ms. Gorelick. I think it's an excellent question. As 
Chairman Kean said, certainly we didn't address this issue 
specifically in our report, but it would be in line with the 
kinds of recommendations that we made elsewhere to align 
responsibility and authority in one person, to coordinate the 
many pots of money that operate against the same goal. I would 
make sure that you add to the list the considerable funds that 
are spent for humanitarian aid through the Defense Department. 
They are, in fact, the people on the ground in many respects. I 
would look at the different sources of funding and who controls 
them, and I would try to make sure that they are working 
together in a coordinated fashion, and I would imagine the 
administration would want to do that as well.
    Mrs. Maloney. But at it stands now, each of these 
departments have control over their budgets and their 
decisionmaking, and they may be duplicating or not working 
together. And, therefore, our message of what America is doing 
and doing to help becomes----
    Ms. Gorelick. We honestly did not look at the specific 
question that you are raising, and I know that you have other 
helpful panelists here today. One of the reasons that we 
suggested and made as a key recommendation a very high-level 
national counterterrorism center run by someone at essentially 
a deputy secretary level is that this person would bring 
together all the tools available across the government in a 
coordinated plan. While we did not suggest, for example, that 
all of the budgets relating to education be vested in the 
National Counterterrorism Center, we do say that all of the 
planning against the challenges of Islamist terrorism be vested 
in one place.
    As you may recall in our hearings, when I sat where you 
are, I kept asking who our quarterback is, and we found no one 
with responsibility across the board for focusing all of the 
tools of our government against this challenge. If I were 
creating this position, as you have the opportunity to do, I 
would say this person should also look across the board at 
these kinds of aid programs to advance education in Muslim 
countries as one of the key important tools.
    Mr. Shays. I thank the gentlelady.
    Before claiming my time, I just want to introduce into the 
record a statement offered by the Muslim public affairs council 
and read two to two-and-a-half paragraphs. It says ``Thank you, 
Congressman Shays, and your staff, for asking the Muslim public 
affairs council to submit written testimony in response to the 
9/11 Commission's recommendations from public diplomacy in the 
Muslim world. The goals of the Muslim Affairs Council comprise 
two equally important and parallel tasks, to promote peaceful 
relations within the United States and the Muslim world and to 
make Islam a positive component of American pluralism. The 
Council views these goals as independent.''
    Then further down they say ``public diplomacy among 
nonmilitary goals made by the 9/11 Commission is the vehicle 
that will be utilized effectively and with leadership to 
enhance dialog with the United States and the Muslim world and 
to create a global constituency to advocate on behalf of our 
interests, namely by the following: Elimination of terrorism as 
an instrument of political influence in the region, movement 
toward Middle East peace; three, advancement of a nuclear 
nonproliferation for development of stable democratic 
governance; and five, restoration of human rights, including 
rights of minorities and emancipation of women. In short, 
public diplomacy means to achieve these goals and not a goal 
itself.''
    I'll just make reference to the fact that they do then 
question the term Islamism in terms of the Commission's report. 
So why don't I start my questions by taking that up. I was 
struck by the fact that if I had done that, I might have been 
called the racist, even though it's a little different. 
Obviously it's not about racism, but making that reference that 
Islamic terrorism, did you all have a debate on this? And in 
the end you say, listen, we're not being attacked by the 
Norwegians, Christians? I mean, what ultimately made you want 
to state that term, and what should we infer from that?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.019
    
    [GRAPHIC] [TIFF OMITTED] T8211.020
    
    [GRAPHIC] [TIFF OMITTED] T8211.021
    
    [GRAPHIC] [TIFF OMITTED] T8211.022
    
    Mr. Kean. Well, we really wanted to define the enemy. We 
said at the Commission--and we debated this for long hours, 
talked about it a lot. Simply the word ``terrorism'' as a war 
against terrorism didn't do us a lot of sense. It's a war 
against one particular variety of terrorism as practiced by a 
certain group of people, and they are Islamic terrorists. So we 
came really to define who the enemy is by using that term so it 
wouldn't be too undefined or too vague.
    You were a part of that debate.
    Ms. Gorelick. Oh, yes, I was part of that debate. Let me 
say a couple of things. One, we read the national 
counterterrorism strategy and were astonished to find no 
mention of Islamist religion in parts of the globe. It was as 
if the enemy were this inchoate tool called terrorism, and we 
honestly don't believe that you can address the threat in that 
way. You have to identify the fact that we have an enemy. The 
enemy that we have identified is Islamist terrorism, Islamist 
extremism. It is not the Muslim religion. It is not Islam. It 
is not Islamic terrorism. It is Islamists, and we take some 
care in defining what that is, but it is basically a very 
radical group. As Chairman Kean said, sort of hijacked element 
of the religion, which defines anyone that they don't agree 
with as infidels worthy of murder.
    Mr. Shays. See, the challenge that we have, I think is--in 
trying to win the hearts and minds of ``the Islamic world and 
others,'' I happen to believe, for instance, and everything 
I've read about Wahabism, that it is a fairly aggressive, 
almost violent, approach and extraordinarily intolerant, and 
yet that defines a nation. It defines Saudi Arabia, quite 
frankly.
    So I think what you did was extraordinarily important, but 
I don't think you made the job any easier now in terms of 
winning the hearts and minds, because we're being honest with 
each other, and that honesty I think says we'd better confront 
it. And I would view your use of the polls, Governor Kean, as 
real, but I'm not quite sure how I'm to interpret it, because I 
think when you strip open the carpet and you see the bag that's 
underneath there, you have stirred things. You have created 
anger and so on that has to be dealt with. I would make the 
argument that we've got to go through this process, and we 
aren't going to be so popular right now.
    I happen to look at Churchill and think he wasn't too 
popular in the 1930's. Nevil Chamberlain was a hero, and Nevil 
Chamberlain was wrong. So were the French, obviously, and so 
were the Germans and so on, and I'm not so sure that having bad 
polls isn't an indication of something, frankly--and I'd have 
constituents who would take issue with this--really an 
indication that we are finally standing up to a reality of 
fundamentalism within a particular faith that is widespread and 
promoted, frankly, even by governments.
    I'd have you comment.
    Mr. Kean. Well, as long as you narrow these people down, 
because you can't say, oh, Wahabism is Islamic terrorists. A 
lot of it is not. It's a very, very small group of people who 
have taken that extra step and said that in order to promote 
their particular philosophy, you've got to murder a lot of 
innocent civilians. That is not even what the majority of 
Wahabists believe.
    Now, some of the climate that's created by those schools, 
Wahabism, sets the necessary climate that this particular small 
group of people can exist within.
    Mr. Shays. Yes. I would think, frankly, that's almost an 
understatement. I mean, we have Saudi Arabia in former 
Yugoslavia, their contribution economically is, frankly, more 
mosques, teaching their brand of the Islamic faith. That's what 
they are doing. Instead of doing what we would like them to do, 
which is provide economic assistance and preach tolerance and 
so on. So it just strikes me that we've got a real big task.
    I salute you for bringing this up, but I believe that--
three commissions told us, before you ever existed, before 
September 11 ever took place, they said you have a terrorist 
threat out there; you need to develop a strategy to deal with 
it, and you need to reorganize your government. They only 
disagreed on the reorganizing government, but I will say to you 
they weren't as explicit as you were to narrow the threat in 
the way you did, and I think that it was important that you did 
that.
    I would like to ask you in terms of the three categories, 
do the right thing, let me just mention about do the right 
thing. Jimmy Carter wanted to do the right thing, and he said, 
I'm just going to work overtime to negotiate the release of, 
and what he said to the Iranians, America, what a world, we can 
keep them for 20 years; all we have to do, the Iranian 
government, is negotiate, and you did have a President who said 
we're going to treat this as what it is, an act of war. Usually 
when you have even a war, you exchange your diplomats, and here 
we had a government now holding American diplomats. It was an 
act of war. Immediately they were returned, and I'd like you to 
just comment. I don't want to leave on the table this concept 
that somehow force is useful, diplomacy is the answer. It 
strikes me that diplomacy without the potential to use force is 
useful.
    Ms. Gorelick. If I've left the impression in any way that I 
think that force is useless, I want to correct that impression 
right now. We are very clear about this, that there are people 
bound and determined to kill us and that the only way to deal 
with them is to kill or capture them and to be most aggressive 
about it.
    What we have tried to say is that you have this hardened, 
committed, zealous group of people that have to be dealt with 
in a swift and clear manner. You have, however, a looming 
danger, which is the greater public support for this type of 
activity across the Muslim world. We want to drive a wedge 
between the committed zealot on the one hand and the person 
living in the Muslim world who is right now much more 
sympathetic to Osama bin Laden than he is to George Bush, and 
that's wrong.
    We cannot condemn and we do not wish to condemn the entire 
Islamic world. We do not do that. The fact is that we are 
harmed and our national security is harmed when we have as 
little support as we have in Egypt, in Saudi Arabia, in Jordan, 
in Turkey, of all places, in the countries that have been a 
bulwark of support for us. We need them. We need their support 
for basing. We need their support for the education reforms we 
were talking about. We need their support for covert action. We 
need their support for the sharing of information. We need 
them, and we need them to understand us. We need them to 
respect us. And so this is difficult. It is not all one or the 
other.
    Mr. Shays. I'm happy that you've made it very clear the 
position of the Commission. The sad fact is that Saddam Hussein 
never thought we would remove him from Kuwait, or he never 
would have gone in, and he never thought we would do a regime 
change, or he would have cooperated. He never wanted to be 
hunted like an animal. He never wanted his kids killed. He 
never wanted his daughters in Jordan. We know that. He never 
thought we would attack him. He misread us twice, which strikes 
me that a deterrence that people don't think you're going to 
use becomes a meaningless instrument, and as a result, we've 
had a loss of life. A tremendous loss of lives.
    I'd like you to speak on one issue. I have a red light, and 
I'll let Members come back with one or more questions and then 
get to our next panel, but I do want you to tell me the pluses 
and minuses of your recognition that there is a way that we 
appeal to people in the Third World. That's important, I would 
think, schools, speeches, I mean, forums, come to the United 
States, but that generally impacts the elite within society, 
those that basically have an opportunity to study in this 
country become the elite. Let me put it that way. Whereas, the 
other approaches mask communication with the downtrodden who 
live there.
    Tell me the pluses and minuses of each. I know that you're 
suggesting we do both.
    Mr. Kean. Well, we're doing a less effective job on both at 
the moment. I mean, I'll tell you in my present world as a 
college president that we're getting less of those exchanges 
now than any time in a long, long time. I mean, the future 
leaders of the world, we have benefited because they have come 
to this country for education. For whatever reason, in the 
present atmosphere, they're deciding not to come, in very large 
numbers, and those people from Africa and Asia and other places 
are finding other places to get their education, and I think 
that will hurt us over the long haul.
    It's hard to differentiate between the two. Obviously 
you've got to appeal to the educated people, the people who 
will be hopefully the future leaders of the country, and you 
need to do everything you can to appeal to them. One of the 
best ways was getting them to see this country themselves, and 
then go back and most of them understood the benefits of our 
society and economy and promoted it in their own country in 
various ways, but that does not come at the exclusion, 
particularly these days, of trying to communicate with larger 
numbers, and we have the ability to do that now. There's no 
reason that Al-Jazeera should be unchallenged, that there 
should be no other means of communication that these people 
hear in this part of the world, whether we fund part of that, 
whether we do that with the combination of others, but that 
shouldn't be challenged, the method of communication, 
particularly what they put on the air is not in our interest.
    So, yes, I think we've got to do both. I mean, you can't 
just say I think deal with the elites and you can't just say 
deal with the masses. We have different ways of doing both, and 
I think your point is correct. We've got to do it.
    Mr. Shays. Does any other Member have a closing comment? 
I'm just thinking that Mayor Lindsey who was losing the 
election won the election when the Mets won the World Series. I 
wonder the impact if the Iraqis get the gold medal.
    Mr. Kean. It would be nothing but good.
    Mr. Shays. Is there any question we should have asked that 
we didn't, any question that you prepared for that we should 
have realized or any statement you want to make?
    Mr. Kean. Thank you very much for the opportunity.
    Mr. Shays. Let me just thank both of you for honoring this 
subcommittee and all of Congress by your extensive time spent 
with so many of us. It will pay off. Your work will pay off.
    Mr. Kean. We want to thank you and the Congress for coming 
back during the month of August. I know how extraordinary that 
is, and I think when most of us in the Commission cheered the 
fact that you were willing to do that because of your 
understanding of the crisis this country is facing, I don't 
think members of the Commission realized that meant we were 
going to be here in August too.
    Mr. Shays. Let me just ask you right now, though, your 
staff members are no longer paid. Is that correct?
    Mr. Kean. That's correct.
    Mr. Shays. Because what we have, one more hearing tomorrow, 
and we were asking the Commission member, a staff member to 
come, and we realize they're out around the countryside, but if 
you find a staff member loitering around Washington, I hope you 
send them to our subcommittee tomorrow.
    Mr. Kean. We'll do your best to get them here. Thank you.
    Mr. Shays. Thank you both very much. We appreciate it a 
lot.
    The Chair will now recognize our next panel, and thank them 
for their patience. Patricia de Stacy Harrison, acting Under 
Secretary of State for Public Diplomacy and Public Affairs, 
Department of State; Kenneth Tomlinson, chairman, Broadcasting 
Board of Governors. Charles ``Tre'' Evers III, Advisory 
Commission on Public Diplomacy, Commissioner; and Jess T. Ford, 
Director of International Affairs and Trade, Government 
Accountability Office. We recognize all four. If they would 
remain standing, and we will swear them in.
    If you'd raise your right hands, I'd like to swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    We'll start with you, Madam Secretary. We appreciate your 
being here today. We appreciate your service as acting 
secretary on two occasions here now. We just know that a lot of 
work is required, and thank you for that, and thank all the 
other witnesses as well.
    So you have the floor.

    STATEMENTS OF PATRICIA DE STACY HARRISON, ACTING UNDER 
  SECRETARY OF STATE FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, 
DEPARTMENT OF STATE; KENNETH TOMLINSON, CHAIRMAN, BROADCASTING 
    BOARD OF GOVERNORS; CHARLES ``TRE'' EVERS III, ADVISORY 
COMMISSION ON PUBLIC DIPLOMACY, COMMISSIONER; AND JESS T. FORD, 
    DIRECTOR OF INTERNATIONAL AFFAIRS AND TRADE, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Harrison. Thank you, Chairman Shays, members of the 
committee.
    Mr. Shays. I don't think your mic is on, Madam Secretary. 
Is that it?
    Ms. Harrison. Can you hear me now?
    Mr. Shays. Yes.
    Ms. Harrison. Thank you for this opportunity.
    Mr. Shays. Just do me a favor and I'll start you over. Just 
tap the--yes. That's all right. Thank you.
    Ms. Harrison. Well, first, I do want to thank all of you 
for this opportunity. I can't think of anything more important 
that we could be doing today. Mr. Chairman, my written 
statement for the record provides a comprehensive report on 
public diplomacy initiatives since September 11th, and with 
your permission, I will just make a few brief remarks.
    Mr. Shays. Absolutely.
    Ms. Harrison. Thank you so much.
    The recommendations of the 9/11 Commission underscore 
challenges to public diplomacy as we seek to engage with 
audiences in the Arab and Muslim world.
    The Commission calls upon us to define our message to take 
a strong stand in support of a better future, to defend our 
ideas, ideals and values and to offer opportunity to youth. I 
agree strongly with these recommendations.
    Following the attack on our country, we began to execute a 
public diplomacy strategy that aligns with these directives, 
with the understanding, as Dr. Rice said recently, there was 
much more that must be done.
    We have accelerated our effort to communicate with and 
engage Arab and Muslim audiences advocating both values and 
policy, affirming what we have in common and the mutual benefit 
of working together for peace, prosperity and freedom.
    The essence of America's message to the world is the hope 
implicit in our commitment to individual freedom, the 
nonnegotiable demands of human dignity and economic 
opportunity, and despite the negative polls, we find that these 
values resonate. They are enduring, especially with the young, 
an important and rapidly growing demographic.
    Our missions abroad are actively engaged in advocating 
values and policy through a wide variety of programs, tailored 
to specific cultures and taking into account the way people 
receive or trust information. We are working more closely than 
ever with USAID to ensure recipients of our assistance 
recognize that this help does come from the American people, 
and the new policy coordinating committee on Muslim outreach, 
which I cochair with the NSC, will further strengthen 
coordination with DOD and other agencies.
    As we work within an environment of instant global 
communication, we are using all the tools of technology through 
the Internet, television print and broadcast, video and film, 
and I'm very pleased to be here today with Ken Tomlinson, the 
BBG under his leadership has been vigorous and creative, 
through Radio Sawa and Alhurra TV, we are reaching increasingly 
larger audiences with the preeminent mass media channels of 
radio and television.
    The Department's Bureau of International Information 
programs, through its expanded Web presence, utilizes the other 
critical channel of mass media, the Internet, and also helps us 
connect at a grass-roots level through American Corners.
    The Bureau of Public Affairs has expanded its outreach to 
new media outlets to connect, to inform and counter this 
information within a 24-7 global news cycle and is inviting 
journalists to expose them to American life in all of its 
diversity.
    Through exchange programs, we are reaching younger and more 
diverse audiences, and we have refocused our programs to engage 
a group I call youth influencers: university professors, 
classroom teachers, clerics, ministers of education, 
journalists, community leaders.
    Almost 3 years ago we launched Partnerships for Learning. 
It's a collaborative effort with men and women from the region 
who want to work with us on behalf of the succession 
generation, many of whom lack a solid education, and they face 
a future of chronic unemployment and underemployment.
    Partnerships for Learning is delivering hope and 
opportunity through Fulbright and other scholarships, through 
exchanges and English teaching. We have just completed the 
first year of our country's first ever government-sponsored 
high school program with the Middle East, more than a dozen 
Muslim countries, and we did this with the support of hundreds 
of Muslim American host families, and may I just interject that 
at a time when the polls, the tsunami of polls is so negative, 
we have families in these countries on a waiting list who 
desperately want to send their young people to our country for 
1 full year to interact with Americans and have a little bit 
more opportunity for their own future, and in fact we know that 
one of the greatest assets in public diplomacy is the American 
people themselves.
    Through our partnership with the private sector, which 
includes a network of more than 1,500 organizations and 80,000 
volunteers who welcome and host thousands of people from other 
countries to the United States, we are communicating values in 
the most direct and enduring way.
    Within the Department of State, we have taken steps to 
strengthen coordination of public diplomacy and have sent to 
Congress notification of our intent to establish an office of 
policy planning and resources in the office of the Under 
Secretary for Public Diplomacy and Public Affairs.
    There are many lessons that we are still learning from 
September 11th, but one overarching theme remains, getting our 
message out in words and images is only part of the job. We 
must commit to working in partnership with the vast majority of 
people who want a better future for themselves and their 
children.
    Commission member John Lehman is right. Soft options are as 
important as the hard ones. In both peaceful times and times of 
conflict, our mission is to ensure a positive, vigorous 
American presence in the world, declaring our policies, 
demonstrating and communicating our values, forging links of 
mutual understanding and respect between peoples on a 
continuous and sustained basis. This is not the work of weeks 
or months. It is the work of years and generations, and the 
mission of soft power is a vital part, not only of our homeland 
security but everyone's homeland, everyone's security. Thank 
you very much.
    Mr. Shays. Thank you very much.
    [The prepared statement of Ms. Harrison follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.023
    
    [GRAPHIC] [TIFF OMITTED] T8211.024
    
    [GRAPHIC] [TIFF OMITTED] T8211.025
    
    [GRAPHIC] [TIFF OMITTED] T8211.026
    
    [GRAPHIC] [TIFF OMITTED] T8211.027
    
    [GRAPHIC] [TIFF OMITTED] T8211.028
    
    [GRAPHIC] [TIFF OMITTED] T8211.029
    
    [GRAPHIC] [TIFF OMITTED] T8211.030
    
    [GRAPHIC] [TIFF OMITTED] T8211.031
    
    [GRAPHIC] [TIFF OMITTED] T8211.032
    
    [GRAPHIC] [TIFF OMITTED] T8211.033
    
    Mr. Shays. Mr. Tomlinson.
    Mr. Tomlinson. Thank you, Mr. Chairman, Mr. Kucinich, 
members of the committee. We thank you so much for this 
important hearing on the 9/11 Commission recommendations on 
public diplomacy.
    Earlier this year, with the enthusiastic support of 
President Bush and Members of Congress, the Broadcasting Board 
of Governors launched Alhurra, ``The Free One, ``our new 24-
hour-a-day Arab language television network. Through direct-to-
home satellite communications and terrestrial transmission to 
Iraq, we are able to broadcast directly to the people in the 
Middle East over five time zones in 22 countries, from Morocco 
to Iraq to Yemen.
    Our broadcasts will not overnight eliminate the effects of 
generations of intellectual isolation and neglect so vividly 
outlined in the classic U.N. report of 2003, the report on 
knowledge dissemination in the Arab world. In contemplating 
what we have to overcome to establish real and substantive 
dialog with our neighbors in the Arab word, it's daunting to 
consider the fact that the aggregate of western books 
translated into Arabic since the dawn of publishing amounts to 
little more than 10,000 books, equivalent to what Spain 
translates in a single year.
    Indeed, the United Nations report concluded what we have to 
overcome in the region is the absence of a strategic vision 
that provides a solid foundation for knowledge dissemination 
through education, media, publishing and translation. The 
knowledge base for the people in the Arab world is further 
limited by the indisputable fact that the news and information 
they have received from several popular satellite television 
outlets like Al-Jazeera have given them a picture of the world 
which is frequently distorted by institutional prejudices and 
sensationalism.
    Against this backdrop, consider what the people in the Arab 
world have been able to watch in recent weeks on Alhurra 
television. For 3 consecutive days last week, Alhurra broadcast 
live sessions of the Iraqi National Congress in Baghdad. Iraqis 
observed their representatives freely debating the future of 
their nation, democracy in action, in stark contrast to the 
repression they had experienced before.
    These broadcasts were not restricted to the people of Iraq. 
Throughout the Arab world, people were able to see that freedom 
and democracy can exist within a Muslim country, that universal 
values can be embraced by Muslim societies.
    Daily talk shows on Alhurra which present points of view 
across the political spectrum, including positions 
unsympathetic to our own, mean that for the first time people 
in the Arab world see, hear and participate in the foundations 
of democracy. We present. You decide.
    Alhurra is helping to frame the debate and the focus on 
issues facing this region. We will not win every argument on 
every political talk show, but as President Bush has said time 
and again, in the long run, truth is on our side. Moreover, we 
believe the very existence of free-flowing debate on Alhurra 
will encourage people to demand free and open and objective 
presentations on indigenous Arab outlets throughout that 
region.
    Consider the effects of in-depth Alhurra coverage of the 
genocide in the Darfur region of the Sudan. Long before the 
world had come to focus on this tragedy, Alhurra reporting 
teams were on the scene, which led other Arab media outlets to 
follow suit and make the events of Darfur a matter of serious 
concern to all people. The ability to debunk anti-American 
conspiracy theories by credible Arab thinkers alone were worth 
the price of U.S.-financed satellite broadcasting. The truth is 
on our side.
    In the midst of all this broadcasting, it is critical that 
accuracy be our standard. The people of the region aren't 
stupid. If we're slanting the news, they will figure it out, 
but if we establish long-term credibility on these broadcasts, 
people will begin asking questions: What went wrong? What 
slowed the development of a civilization that was once far 
ahead of the west? What were the factors behind the crushing 
absence of economic opportunities for youth in the Arab world? 
And we will be there to answer them.
    Let me turn to Radio Sawa briefly. To me the most striking 
success of Sawa has been the widespread acceptance of Sawa news 
and public affairs programming as credible.
    We realize the draw to this youth-oriented station is 
popular music, and when we started, people said, they'll never 
listen to your news and they'll never take it seriously. Well, 
according to surveys conducted earlier this year by A.C. 
Nielsen, Radio Sawa was found to be a reliable source of news 
and information by 73 percent of its weekly listenership.
    In an era when Arab youth systematically boycott American 
products, they not only have widely accepted U.S.-sponsored 
entertainment radio, they have accepted its news as accurate 
and dependable.
    I do want to pay tribute to a fellow board member, Democrat 
Norman Pattiz, the father of Radio Sawa, and an irrepressible 
force for international broadcasting. Thanks to his spirit and 
a dedicated core of journalists led by news director Mouafac 
Harb, Radio Sawa has made a truly historic breakthrough in the 
Middle East.
    And Mr. Chairman, we deeply appreciate the favorable focus 
on what we've been doing in the 9/11 Commission Report. The 
report said: ``recognizing that Arab and Muslim audiences rely 
on satellite television and radio, the government has begun 
some promising initiatives in television and radio broadcasting 
to the Arab world, Iran, and Afghanistan. These efforts are 
beginning to reach large audiences. The Broadcasting Board of 
Governors has asked for much larger resources. It should get 
them.''
    We are currently working with the administration on 
potential radio and television strategies that would give us 
the same type of impact in the non-Arabic-speaking Muslim world 
as we're having in the Arabic-speaking Muslim world. We have 
made a good start.
    In Iran, we've built on the popularity of VOA radio with a 
new 24/7 Radio Farda for the youth which combines the talents 
of VOA and RFE/RL. We've also had, thanks in no small part to 
the leadership of board member Blanquita Cullum, a tremendous 
breakthrough with the Voice of America 30-minute daily TV show 
in Persian carried by satellite to Iran.
    In Pakistan, thanks to the leadership of board member Steve 
Simmons, one of your constituents, Mr. Chairman, we have 
expanded Urdu radio from 3 hours a day via a shortwave to 12 
hours a day with an AM signal from the region. This 12-hour 
stream is designed to attract and inform younger listeners.
    But we all recognize this is not enough. Our long-term 
plans include new transmitters and satellite television 
broadcasting in Pakistan so our programming can be heard in 
this critical country.
    In Afghanistan, BBG entities broadcast 24/7 in Pashto and 
Dari, the languages of those countries. Research shows that 
half the people in Afghanistan are listening to us. In Kabul, 
we have two-third of adults, but as is the case elsewhere in 
the Islamic world, television is becoming an important medium 
there.
    Iran television is available 24/7 in Afghanistan. We need a 
television presence there. In other areas of the non-Arabic-
speaking world, places like Indonesia and sub-Saharan Africa, 
the Horn of Africa, we're working to expand our radio and 
television presence for obvious reasons.
    In reflecting on where we want to go with public diplomacy 
and international broadcasting, we have to understand why we, 
in so many areas, have found ourselves lacking.
    In the decade following the end of the cold war, many 
believed expenditures for international broadcasting were no 
longer necessary. U.S. spending for international broadcasting 
were slashed a very real 40 percent. I would like to provide 
for the record a copy of this chart that shows what happened to 
us at the end of the cold war and, very fortunately, what's 
happened to us because of the Bush administration and Congress 
in the last 3 years.
    Despite the generous support we've received in the past 3 
years, however, we are fighting to rebuild from a depleted 
base. We're struggling to catch up to what we should be doing 
in these strategic parts of the world.
    And we at the BBG have benefited by the creation inside the 
White House of the Office of Global Communications, as well as 
an understanding inside the National Security Council of the 
importance of our broadcast initiatives. There would be no 
Alhurra Television today had it not been for enthusiastic 
support from this office and from the NSC for BBG initiatives. 
Support is critical for our mission, and I cannot stress how 
much.
    Mr. Shays. If you can wind up.
    Mr. Tomlinson. I stress the importance of credibility of 
what we broadcast, and we look forward to answering your 
questions.
    Mr. Shays. Thank you very much for your nice statement as 
well.
    [The prepared statement of Mr. Tomlinson follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.034
    
    [GRAPHIC] [TIFF OMITTED] T8211.035
    
    [GRAPHIC] [TIFF OMITTED] T8211.036
    
    [GRAPHIC] [TIFF OMITTED] T8211.037
    
    [GRAPHIC] [TIFF OMITTED] T8211.038
    
    Mr. Shays. Mr. Evers.
    Mr. Evers. Thank you, Mr. Chairman, Ranking Member 
Kucinich, Mr. Turner and Mr. Platts. I want to thank you on 
behalf of our chairman, Barbara Barrett, and the five other 
members of the bipartisan U.S. Advisory Commission on Public 
Diplomacy for this opportunity to share my thoughts on the 
successes achieved by and the challenges facing U.S. public 
diplomacy.
    The members of our commission are currently preparing the 
final version of our annual report for its release on September 
28th. The report reviews areas of public diplomacy previously 
identified as challenges, recent progresses and areas that 
still need to be addressed.
    Today I hope to present some of these challenges and 
advances to you and to address the recommendations presented in 
the 9/11 Commission Report.
    Specifically, I'll focus on five areas.
    The first is broadcasting, and Mr. Tomlinson here gave a 
very good rundown of what they're doing. The 9/11 Commission 
Report recommends that they get more resources. Radio Sawa was 
launched in March 2002 and is already achieving large listening 
audiences. In addition, Alhurra is doing the same and it's a 
great advancement in the satellite network arena that we were 
previously not competing in.
    We also believe that broadcasting English language programs 
establishes a mutually beneficial relationship with audiences 
that few other public diplomacy programs can match. Learning 
American English through programs like VOA Special English 
builds physological bonds and deeper cultural understanding 
while giving listeners tools they need to succeed in the world.
    Yet these programs, despite being popular and efficient, 
are restricted by budget constraints. We would echo the 9/11 
Commission Report that they receive more funding.
    The 9/11 Commission Report remarked on the sad state of our 
exchange and library programs. American exchange and library 
programs, though they may not show results for years, are 
essential to fostering support of the United States among 
opinion leaders.
    Physical public diplomacy outposts staffed and owned by the 
United States present prime targets for terrorists throughout 
the globe. The Pallazzo Corpi, a former American consulate and 
library in Istanbul, Turkey, located in the city center, was 
targeted at least six times by terrorists until it was closed 
last year.
    Newer programs, like American Corners, Virtual Presence 
Posts, Information Resource Centers and others, provide similar 
functions while addressing security concerns.
    Over the past year, the Department of State has 
significantly ramped up its investment in American Corners and 
Virtual Presence Posts. There are now 143 American Corners in 
Africa, south Asia, east Asia, Eastern Europe and the Middle 
East and plans to open another 130 in 2004.
    The e-Diplomacy Office administers the Virtual Presence 
Posts while the Bureau of International Information Programs 
administers American Corners. American Presence Posts are 
designated by individual missions and must receive approval 
from Congress. We believe these programs should be assembled 
under one cohesive and comprehensive task force, and cumbersome 
procedures such as congressional approval should be 
streamlined.
    As it comes to the message and how we coordinate America's 
message, we believe that in this global 24-hour communications 
environment, messages from the U.S. Government to the world are 
not all communicated by the State Department. We have messages 
from the White House, DOD, the CIA, FBI, Homeland Security and 
Congress. Without coordination of these communications, the 
U.S. Government misses the magnifying effect that a unified 
message could have on overseas publics or, worse, shows 
inconsistencies that cause credibility.
    No comprehensive inventory across agencies of all 
government public diplomacy programs and activities has ever 
been conducted. The sum of the public diplomacy budgets of 
these various agencies is probably in the billions of dollars. 
Such an evaluation might show where efforts should be expanded, 
combined or eliminated, particularly useful in an environment 
of scarce resources.
    There are several initiatives that have attempted to better 
coordinate public diplomacy efforts recently. The International 
Public Information Core team, better known as Fusion Team, 
provides information-sharing capabilities for the varied 
government agencies involved in public diplomacy through a list 
serve and weekly meetings. Another coordinating body, the 
Office of Global Communications, or OGC, was established in 
January 2003 within the White House to coordinate strategic 
daily messages for distribution abroad with the long-term goal 
of developing a national communications strategy. The OGC works 
with several hundred foreign journalists in Washington, 
providing them with access to the White House events and 
briefings, as well as interviews with the President and other 
top officials.
    The Public Diplomacy Policy Coordination Committee [PCC], 
was established in September 2002 and is cochaired by the 
National Security Council and State Department. It ensures that 
all agencies work together to develop and disseminate America's 
messages across the globe. These two groups work together on 
strategic communications activities such as outreach to the 
Muslim world.
    The creation of these mechanisms is not enough. They must 
also be fully utilized and developed through an interagency 
strategic communication plan that clearly identifies messages, 
priorities, and target audiences.
    We also agree with an important recommendation of the 
Commission that we test these programs,all programs. We believe 
that focus groups and public opinion research needs to be 
involved at the beginning and at the end of exchange programs 
and in how we deliver our message.
    In conclusion, as numerous reports including the 9/11 
report have attested, public diplomacy needs to be a national 
security priority. International public opinion is influential 
in the success of public policy objectives, and adequate 
resource allocation for public diplomacy will determine success 
in the areas I have mentioned today.
    The commission is pleased to see this concept being 
recognized and looks forward to working with the administration 
and Congress toward achieving a better American dialog with the 
world. Thank you.
    Mr. Shays. Thank you, Mr. Evers.
    [The prepared statement of Mr. Evers follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.039
    
    [GRAPHIC] [TIFF OMITTED] T8211.040
    
    [GRAPHIC] [TIFF OMITTED] T8211.041
    
    [GRAPHIC] [TIFF OMITTED] T8211.042
    
    [GRAPHIC] [TIFF OMITTED] T8211.043
    
    Mr. Shays. Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman, members of the 
subcommittee. I'm pleased to be here today to discuss GAO's 
recent work on U.S. public diplomacy and international 
broadcasting with a specific focus on the Middle East and the 
recommendations of the 9/11 Commission.
    The terrorist attacks of September 11 were a dramatic 
reminder of the importance of cultivating a favorable public 
opinion of the United States abroad. Recent opinion research 
indicates that foreign publics, especially in countries with 
large Muslim populations, view the United States unfavorably.
    Today my testimony will highlight our findings that are 
relevant to the specific 9/11 Commission recommendations to 
increase the support for broadcasting to Arabs and Muslims and 
to rebuild our scholarship, exchange, and library programs 
overseas and to better define U.S. public diplomacy message.
    Since September 11, 2001, both the State Department and the 
Broadcasting Board of Governors, have expanded their public 
diplomacy efforts in Muslim-majority countries considered to be 
of strategic importance in the war on terrorism. In the two 
fiscal years since the terrorist attacks, the State Department 
has increased its public diplomacy funding and staffing and 
expanded its programs in two regions with significant Muslim 
populations,south Asia and the Near East.
    Among other efforts, the State Department is emphasizing 
exchange programs targeting young and diverse audiences, 
including high school students. State is also expanding its 
American Corners program which provides information about the 
United States to foreign audiences through partnerships between 
U.S. Embassies and local institutions. These efforts are 
consistent with the 9/11 Commission Report recommendation that 
the United States build this scholarship, exchange and library 
programs for young people.
    In addition, since September 11, the Broadcasting Board of 
Governors has initiated several new programs focusing on 
attracting large audiences in priority markets, including Radio 
Sawa in the Middle East, the Afghanistan Radio Network, Radio 
Farda in Iran, and recently the Arab language satellite network 
called Alhurra.
    The 9/11 Commission Report endorses the Board's request for 
additional resources to expand its broadcast efforts targeted 
to Arabs and Muslims. However, although board research 
indicates that these initiatives have garnered sizable 
audiences, it's unclear whether the program content is changing 
audience attitudes or increasing knowledge and awareness of 
issues of strategic interest to the United States.
    In September 2003, we reported that the U.S. Government 
lacked an interagency public diplomacy strategy that defines 
the message and means for governmentwide communication efforts 
targeted at overseas audiences. The 9/11 Commission Report 
recommended that the United States do a better job of defining 
its public diplomacy message. Because of their differing roles 
and missions, the State Department, the Department of Defense, 
the U.S. Agency for International Development, and others often 
focus on different audiences and use varying means to 
communicate with them.
    An interagency strategy would provide a framework for 
considering the foreign publics in key countries and regions 
relevant to U.S. national security interests. The U.S. 
Government communication channel is available in the optimal 
ways to convey communication themes and messages.
    We also reported that the State Department does not have a 
strategy to integrate its diverse public diplomacy activities 
and directs them toward common objectives, and that neither the 
State nor the BBG had focused on measuring progress toward 
long-term goals.
    The absence of an integrated strategy may hinder State's 
ability to channel its multifaceted programs toward concrete, 
measurable progress. We made several recommendations addressing 
planning and performance issues that the Secretary of State and 
the Board of Broadcasting Governors had agreed to implement. We 
recommended that the State Department develop a strategy that 
considers the use of public sector/private relations techniques 
to integrate its public diplomacy efforts, improve performance 
measurements, and strengthen efforts to train Foreign Service 
officers in foreign languages and public diplomacy.
    Among GAO's recommendations to the BBG were that the board 
revise its strategic plan to include audience size and other 
key measurable program objectives. In response to our 
recommendations, the State Department has recently established 
a new Office of Strategic Planning for Public Diplomacy and is 
considering how to adopt the public sector techniques in its 
programs.
    Regarding our recommendation to strengthen performance 
measurement efforts, State Department officials have indicated 
that they're exploring ways to do so, and that among other 
things, they hoped to do more pre- and post-testing of their 
exchange programs.
    The State Department acknowledged the need to strengthen 
the training of Foreign Service officers and told us that the 
primary obstacle to doing so was insufficient staffing to allow 
for training. Officials said they have already begun to address 
staffing gaps by stepping up recruitment efforts.
    In response to our recommendations to the Broadcasting 
Board of Governors, the board has revised its strategic plan to 
create a single strategic goal of maximizing impact in priority 
areas, including the Middle East.
    In conclusion, the 9/11 Commission Report recommendations 
designed to better integrate and focus U.S. public diplomacy 
efforts are consistent with our past findings and conclusions 
and recommendations, and they should be fully considered by the 
executive branch and the Congress.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.044
    
    [GRAPHIC] [TIFF OMITTED] T8211.045
    
    [GRAPHIC] [TIFF OMITTED] T8211.046
    
    [GRAPHIC] [TIFF OMITTED] T8211.047
    
    [GRAPHIC] [TIFF OMITTED] T8211.048
    
    [GRAPHIC] [TIFF OMITTED] T8211.049
    
    [GRAPHIC] [TIFF OMITTED] T8211.050
    
    [GRAPHIC] [TIFF OMITTED] T8211.051
    
    [GRAPHIC] [TIFF OMITTED] T8211.052
    
    [GRAPHIC] [TIFF OMITTED] T8211.053
    
    [GRAPHIC] [TIFF OMITTED] T8211.054
    
    [GRAPHIC] [TIFF OMITTED] T8211.055
    
    [GRAPHIC] [TIFF OMITTED] T8211.056
    
    [GRAPHIC] [TIFF OMITTED] T8211.057
    
    [GRAPHIC] [TIFF OMITTED] T8211.058
    
    [GRAPHIC] [TIFF OMITTED] T8211.059
    
    [GRAPHIC] [TIFF OMITTED] T8211.060
    
    [GRAPHIC] [TIFF OMITTED] T8211.061
    
    [GRAPHIC] [TIFF OMITTED] T8211.062
    
    [GRAPHIC] [TIFF OMITTED] T8211.063
    
    Mr. Turner [presiding]. Thank you. Obviously this has been 
a very important discussion, and when you read the 9/11 
Commission Report and you look at their recommendations with 
respect to intelligence gathering and restructuring of our 
ability to respond, one of the elements of their 
recommendations that really goes to the future of our ability 
to have a relationship in the Middle East and to be successful 
long term is the issue on public diplomacy.
    And Secretary Harrison, in listening to your description of 
some of things that were undertaken and still some of the 
questions as to our effectiveness, what do you see as the 
message of the U.S. public diplomacy in the Middle East? I 
mean, we've talked certainly about the issues in trying to 
define more of who we are, trying to talk more about the values 
of democracy, but what do you see as the message of public 
diplomacy?
    Ms. Harrison. Right now, as we are working in an 
environment of what I would call constant snapshot polling, I 
think it's important to move beyond the initial questions which 
I would characterize as one, two, three: Do you hate us; how 
much do you hate us; do you hate us more today than you did 
yesterday?
    As one woman who was part of our exchange program from the 
region--these were journalists, publishers, editors. She was 
from Egypt. She said I just wish the American people would stop 
asking us all the time how much we hate you. First of all, it 
makes us feel bad; and second, we are forced then to answer a 
question instead of a real question. A real question might be 
how can we work together? And then she said, ``When you ask the 
question, please be prepared to listen.''
    So as we talk about outgoing messages, we also have to talk 
about incoming. And the part we seem to forget sometimes as we 
seek to influence and inform, part of engagement is listening. 
I know the polls are negative, but I think, though, that there 
are some bright spots on the horizon.
    We have to work with people within these communities who 
understand that their young people want a better life as well. 
We have to stand for individual freedom and economic 
opportunity and then take those lofty words and put them into 
practice. And that's why I was saying it's not just the 
message. It's some of the things we can do.
    And where are the opportunities? Well, in Malaysia, Prime 
Minister Badawi--and this is his quote and that's why I'm 
reading it--he said, as a practicing Muslim. We are in deep 
crisis. Muslim youth is vulnerable to extremist ideas. We must 
recover the hallmarks of peace, prosperity and dignity. Then he 
said, I believe that now more than ever, we need to find a 
moderate center. We need to bridge the great divide that has 
been created between the Muslim world and the West.
    Our message, in addition to who we are as a people and our 
values--and it is what our message has always been from the 
beginning of time--we do not seek to stay in any country. We 
seek to help people find their personal freedom, and we have 
enough ways to demonstrate that. When you demonstrate it, then 
the message becomes one of trust.
    Mr. Turner. Mr. Tomlinson, do you have any comments you 
would like to add to that?
    Mr. Tomlinson. I would like to associate myself with the 
remarks of the able acting Under Secretary, Pat Harrison. I 
knew you were good. That's a superb answer.
    We at the Broadcasting Board of Governors, consider 
ourselves, as most people in journalism, as being in the truth 
business. We're trying to produce an informed citizenry out 
there wherever we broadcast. We want people to know what's 
actually going on in the world.
    I sometimes think that there may be an overemphasis on this 
thing of coordination. I was for many years editor-in-chief at 
Reader's Digest, a great magazine. We didn't worry about 
coordination at Reader's Digest, we worried about excellence. 
We worried about making people want to read us. We worried 
about making people want to hear our message.
    That's what I think we've been able do using good 
journalistic and broadcasting strategies at BBG and the 
entities that are under us. We want people to hear us. We want 
people to hear what's actually going on in the world. We want 
people to understand the fruits of freedom. We want people to 
understand the great benefits of the kind of opportunities that 
we offer, and we want people to observe the universal values of 
the rights for women and opportunity for youth. Thank you.
    Mr. Turner. Secretary Harrison, I agree with you on the 
issue of the polls. I think the polls don't necessarily give us 
an understanding really of the fabric, of the context in which 
we need to have this discussion.
    The issue of, as you described it, of how we're perceived 
is also very separate from the issue of values and the Islamic 
extremist message of glorifying death and of the acceptable 
killing of innocents and the acceptable killing through suicide 
bombers.
    What do you see as, one, our ability to impact that message 
and that cultural issue that makes this that much more of a 
dangerous conversation, and second, who are our allies in the 
Middle East to help achieve this discussion of values that 
would celebrate life and a relationship based upon that?
    Ms. Harrison. It's an excellent question, and one would 
think we have no allies. The fact is, in this war of words and 
images, we have a lot of allies, but we have to work with them 
in a way that they find productive. That means in some cases, 
through NGO's, through religious schools, through secular 
schools, through community leaders, with new strategic emerging 
communities.
    I'm going to emphasize what I said earlier. We need to 
listen to how they want to work with us. For example, when I 
went to Pakistan, I met with the Minister of Education, and she 
said we're not going to take on the madrassas; we're going to 
offer more choices. Here's how we would like to work with you; 
we need more of our teachers coming to the United States to 
learn how to teach.
    When we had the first opportunity to engage with 
Afghanistan, the first thing we did was create the U.S.-Afghan 
Women's Council. We brought over teachers so that they could be 
trained and go back and train other teachers. And I just feel I 
must honor the response to a question I asked this one Afghan 
teacher who had taught young children, despite torture threats 
from the Taliban, she kept moving these children from place to 
place. I said, how did you find the courage to do that? She 
said, it wasn't courage, it was the right thing to do.
    When we work with people in partnership on behalf of their 
young people, that's the message. We are doing the right thing, 
and that's when the trust is in the message.
    I think truly, if I can answer you frankly, we should 
forget about talking about image. Image is only about us. We 
should be building long-term relationships with people, who 
even in these polls, if you go below the fourth or fifth 
question where, finally, one polster asks, is there anything 
you admire about America? The first answer is, ``yes, 
education, opportunity and how can I get there.''
    I'm not minimizing the terrible environment in which we 
live, but the fact is this is our environment and we've just 
got to do what we can do now.
    Mr. Turner. Mr. Tomlinson, do you have any other comments? 
Mr. Evers, Mr. Ford, anyone like to add to that?
    Mr. Evers. The only thing I would add is on messages, we 
just teach our American values which are equality, tolerance, 
individual rights, democracy, rule of law. And I think as we do 
that, especially in Alhurras, they see the journalistic ethics 
as it compares to some of the indigenous journalism, these 
types of ethics that we have and our values, because these are 
the same values that people hold all over the world.
    Mr. Tomlinson. If you look at the pupils, some of the 
pupils had some of the worst messages for us in terms of 
popularity of Americans. When you ask the people, as the Under 
Secretary said, what systems do you want, throughout the world 
they admired the freedom of America. Throughout the world, they 
wanted our economic system. Throughout the world, they wanted 
opportunity-based systems. So I think we're building that now.
    Ms. Harrison. I was just going to say that I am very biased 
because, as you know, I'm wearing two hats, and one is as 
Assistant Secretary of Educational and Cultural Affairs, and 
what this means is I get to rediscover America through the eyes 
of people who come here for the first time and tell me, ``Do 
you know you really do have the freedom to practice religion? 
Do you know that your media really is free?'' And one woman 
after September 11, says she wanted to be here to find out one 
thing, do we still say after September 11th, ``have a nice 
day?''
    That was a profound question because she was trying to find 
out if the basic nature of the American people, in terms of how 
she understood us, generosity, humanity, all of the values 
we're talking about, had fundamentally changed. When she came 
back from her 3-week tour, I asked her what did you find out? 
She said it's amazing. I was welcomed by communities. She 
talked about our volunteerism, and here is the catch-22, they 
don't expect to find that. And that's our challenge. They don't 
expect to find the generosity. They are being shaped by 
messages that are distorted, and we don't have enough Americans 
going to these countries. As someone said fax to fax is never 
going to replace face to face.
    We need to engage as citizen diplomats. In this war on 
terrorism, everyone needs to do what they can do, and that 
means engaging a lot with the private sector which I am focused 
on right now.
    Mr. Turner. Thank you. Mr. Kucinich.
    Mr. Kucinich. Thank you very much. To the panelists, thank 
you for your work and for your presence here.
    I want to pick up on this discussion because I think what I 
sense from Ms. Harrison is kind of a puzzlement or perplexing 
dilemma when we know there are people who do like America but 
at the same time we're seeing these polls reflect what 
Commission member Gorelick just called an astonishing 
hemorrhage of support for the United States, and the polls that 
have been the subject of discussion in the previous panel 
pointed out that two-thirds of countries surveyed in 2003 from 
Indonesia to Turkey were somewhat or very fearful the United 
States may attack them. Support for the United States has 
plummeted--this is testimony from Commission members--and that 
the bottom has fallen out of support for America in most of the 
Muslim world. Negative views of the United States among Muslims 
has spread and they go on and give statistics.
    How does that square with what you know and all of us know 
to be true, that people--there still is a desire for people to 
connect with America but there is this broad negativity toward 
America right now? How do you explain that contradiction?
    Ms. Harrison. I think, sir, there are many elements. For 
the first time, there is only one global power in the world, 
and that has great ramifications on how people view us. I also 
think that we are in an environment right now that is very 
volatile, and people are being asked what they think when 
things are happening in Iraq that haven't yet been resolved.
    For example, from my standpoint and if I were polled, the 
Iraqis I meet come here and say, thank you so much. One 
Fulbrighter said, ``you've given me the keys to my future; I 
will go back and build a perfect society.'' So I might answer a 
poll a little bit differently from those who haven't heard 
Iraqis talk about what they can achieve, or the Iraqi soccer 
players who said, ``we're going to do the best we can, but we 
know if we lose we will not be killed and our family harmed.''
    I think polling is almost a cottage industry almost at this 
point. We've probably all read the examples of movies and plays 
and various things going on that provide an outlet for people 
attacking the United States, and that certainly is significant. 
And one always has to ask in business, is the trend your friend 
or not? And we would say, no, the trend isn't our friend.
    Mr. Kucinich. In your experience, have you seen any actions 
that you can think of that the United States may have commenced 
with that could have caused some kind of an undermining in 
support for the United States? How do you account for this?
    Ms. Harrison. I account for the fact that we did not have a 
strong public diplomacy presence in the region for a long time. 
September 11th was a wake-up call. Now it seems what we're 
doing is saying why haven't we fixed it in 3 years? I think 
that's shortsighted.
    I think we have a lot to do in the region, and it's tedious 
and it's labor intensive, and it requires a lot more engagement 
with Americans on a very local level, at a university level, at 
a business level. We have to communicate and define who we are 
over and over again. We can't rely on a generation being 
grateful to us even for what we've done for Muslims. We can't 
rely on the fact that we feel X, Y and Z group should be 
grateful, even after what we did in World War II.
    And I think the lesson, one of the lessons of September 11 
is we have to make a commitment to engage, not declare it's the 
end of history, as Fukiyama did, and decide we've won and 
there's no need to have exchanges because we've got the 
Internet, we've got e-mail.
    So I think we're in the process, sir, of learning a lot of 
hard lessons about what it means to build relationships.
    Mr. Kucinich. So you're talking about a dialog?
    Ms. Harrison. Yes, I am, and I know in my native New York, 
conversation is characterized as talking and waiting for the 
other person to stop. Dialogue means listening.
    Mr. Kucinich. I didn't know you were from New York.
    Mr. Turner. Mr. Chairman.
    Mr. Shays [presiding]. Thank you. Basically, Mr. Evers 
triggers this comment in measurement. I'd like you all to 
define ``success'' for me. What is success? How do we measure 
it? How do we know we're doing a good job?
    Ms. Harrison. Yes, sir. Measurement.
    Mr. Shays. I'm going to give you a rest for a second. I'm 
going to have Mr. Evers start off. Then we'll have all of you 
respond.
    Mr. Evers. I don't know what the exact answer is, but it's 
probably somewhere north of where we are now. It seems to me, 
picking up on the comments, Mr. Chairman, that you made earlier 
about the difference between diplomacy and force and sometimes 
if people don't think you're going to use force, as Saddam 
Hussein, they keep pushing you around, that--and then this age-
old question of whether we should be loved or hated or 
respected or feared, that until--on September 10, 2001, my 
suspicion is we were a lot more loved and respected in the 
world, and I'm not sure what type of safety that provided us.
    So I think there's a medium between where we are now and 
where we need to be. We don't need people blowing up buildings 
and flying planes into them, but I don't think we need to be 
universally loved. I think as Americans we feel the need to be 
loved by everybody, but we need to be respected, and we need to 
be known as an honest partner, but we don't need to be dancing 
in the streets together.
    Some of these poll numbers, I don't agree with everything 
that polling's done because, if you ask me to go do a poll, I 
could probably give you the answer you wanted, too, depending 
on how I worded the question. But I think that we do need to 
have some respect and a little bit more understanding from 
people, and I think that one of the things--when I talk about 
measurement, especially as it relates to exchanges, it's a very 
small sample of people, hundreds that come, not tens of 
millions; and that is, that when they come to America they 
ought to leave with the understanding that we have tolerance 
and equality and that we're honest, just like Under Secretary 
Harrison said the lady who came here left with. And so they 
ought to come to America with their questions, and when they 
leave we ought to know that they got their questions answered, 
and if they didn't we ought to reengineer the programs.
    Mr. Shays. Well, I'm tempted to have a bigger discussion 
with you here, because it's not going to be necessarily what 
polls say, but you're the one that basically triggered some 
type of measurement. Just give me the sense of what are the 
various kinds of measurements, and if you want time to think 
about it, I can go to someone else. I mean, let me go to Mr. 
Ford. I'd like you to just think, Mr. Evers, of whether it's 
polls or whether it is that they--I told someone if I lost the 
election, I want to lose having people know how I voted and not 
like how I voted than to vote against me thinking that I voted 
differently than I actually did, and even if the result is 
still the same, even if I still lose. I want to know it's based 
on good information that we just happened to disagree on.
    Mr. Evers. Sure.
    Mr. Shays. Maybe you can think a little more about this. 
I'd like to come back. Mr. Ford, measurements.
    Mr. Ford. Yes, I think there's several different ways that 
we can obtain information to help us try to sort out the 
answers to questions we're trying to get, and it's not just 
polling. There's lots of different types of surveys.
    Mr. Shays. No. What are the questions that we're trying to 
get answered?
    Mr. Ford. Well, I think that's the first thing is you have 
to define what that is. In many cases in the past on an 
exchange program, we merely asked the individual things like 
did they have a good experience in the United States. They were 
designed to give a short-term answer to an experience they just 
had. They weren't necessarily geared toward answering a broader 
question about how they really felt about U.S. values, 
democratic principles and how they might translate those into 
their own country.
    So I think that first you have to define what questions you 
want to answer, and I think there are a lot of tools out there 
that can be employed to try to get those answers, not just 
polls. You can do different types of survey research. You can 
do focus groups. You can do pre-and post-questionnaires. There 
are a lot of different research instruments out there, many of 
which are used by academics and private research outfits.
    So I think those are the kind of things you can use as 
tools to get the answers to the questions, but first you have 
to define what the question is.
    Mr. Tomlinson. Mr. Chairman, our son is in the Navy. He's 
an officer on the USS McInerney, but when he was a little boy 
in Chappaqua, New York, we couldn't go more than 10 or 15 
minutes on a trip without him saying, are we there yet, are we 
there yet? And I think in many ways the question of how do we 
judge whether we're meeting our goals is like that question.
    Of course, we need to know are they listening to us. We're 
in this to have an informed citizenry abroad. We're in this so 
that people will share our values, universal values, and in 
many ways, it's just a never-ending process. Sure, we should 
check to see if our programs are effective, but I don't think 
we want to be so survey conscious that we stop telling the 
truth or we try to change our message to be effective. I think 
the truth will out in the end.
    Mr. Shays. Madam Secretary.
    Ms. Harrison. Yes. First, let me say that we have a culture 
in the Bureau of Education and Cultural Affairs that is one of 
measurement and evaluation. As someone said, anecdote is not 
data, and the bureau, ECA, if I can use the initials, received 
OMB's program assessment rating at the highest score of 92 
percent. Now, this means they rated our exchange programs in 
NEA and SA, and how did they evaluate them? They used a series 
of questions. It is to see if attitudes have changed in any 
significant way on several levels.
    As a result of coming to the United States as either part 
of Fulbright program, International Visitor, or Humphrey 
program, citizen exchange, did you learn more about the United 
States than you knew before; did your attitude change? And then 
there's a list of indicators that go through policy and other 
things about the American people.
    The other way that we measure is regular reporting that 
comes in from our nonprofit organizations, our partner 
organizations, and that's part of every grant agreement, the 
evaluation of the specific exchange program, and then we have 
reports and stories from our missions. Then we have a results 
data base. Then we have use of demographic indicators, and some 
of them I know you're familiar with: How many people are now 
heads of state, or did that experience in the United States 
shape and inform them. Hamid Karzai, for example, or Tony 
Blair; another one is Megawati Sukarroputri and others; and 
then we have formal independent program evaluations that are 
conducted by outside professional evaluators.
    This system of measurement and evaluation is carried out 
through our new Office of Policy and ECA's evaluation office. 
We want to take this system that is successful in the Bureau of 
Educational and Cultural Affairs and apply it to public 
diplomacy programs and products across the board. We haven't 
done that in as systematic a way as ECA has been doing for the 
last several years.
    Mr. Shays. Thank you. Any further comment? I'm just 
curious, what do you think the United States did or didn't do 
to help the Iraqi soccer team? I'll tell you why I'm wondering. 
I'm wondering because Iraqis turned the Al-Jazeera to watch the 
Iraqi team play. Did Alhurra televise?
    Mr. Tomlinson. We did.
    Mr. Shays. You did as well, live?
    Mr. Tomlinson. We didn't have a contract to do it live, but 
we certainly have covered it massively.
    Mr. Shays. So the only reason we didn't do it is we didn't 
have a contract to do it live?
    Mr. Tomlinson. Right.
    Mr. Shays. OK. Has anyone done a report on who helped them 
and so on? The reason I have this little bit of concern is when 
I was in Iraq a week and a half ago, I saw the team being flown 
by, I think, the Australians, because we have somehow a rule 
that we can't use a military plane in this capacity, and it 
just bothered me if that were the case. I mean, what a huge 
opportunity for us to celebrate what is, I think, one of the 
greatest stories of the Olympics. This team that was involved 
in this huge war, I mean, was having the effects of a huge war, 
they didn't have the capacity to play other teams, and yet 
they're in the semifinals, one of four teams standing, and I'm 
just curious.
    Mr. Tomlinson. It's a great story.
    Mr. Shays. It is a great story.
    Ms. Harrison. Yes. One of the things we haven't talked 
about in terms of public diplomacy is cultural diplomacy and 
how important it is that it be supported. I went to Iraq a year 
ago, and at that time we worked with the Iraqi National 
Symphony Orchestra to have them come here and play, as culture 
is an important part that was restored after Saddam Hussein. 
But we also worked with the athletes through our sports 
programming division. They came to Atlanta. We had archers and 
wrestlers, and we worked with the soccer players, and we are in 
the process of not having just a one-off relationship but a 
long-term training program.
    At the same time, the unknown story or the story that needs 
to be told is this group of soccer players are Kurds and Shiite 
and Sunni, and they all play together as a team, all held hands 
at the end. If a team can do it, I think a country can. Oops, 
I'm starting into another speech, I apologize.
    Mr. Tomlinson. It's good. It's good speaking.
    Ms. Harrison. Anyway it's a powerful story, sir.
    Mr. Shays. It's a hugely powerful story.
    Mr. Tomlinson. I thank you for raising it, Mr. Chairman. 
Daniel Henninger of the Wall Street Journal did a column last 
Friday on this very subject. I'll pass it on to you.
    Mr. Shays. I'm just wondering, though, if we've really done 
what we need to do just to that one story alone.
    Mr. Tomlinson. We can't do too much.
    Mr. Shays. I still am very unclear, though, as to what your 
answers are as to the issue of measurement, so let me ask it 
this way. What are the questions we should be asking and then 
how do we measure?
    Ms. Harrison. In terms of are our programs and products 
working. What way has your attitude changed as a result of a 
trip? Or as a result of a program. We have, I would say, 
information that would fill books that support the validity of 
the exchange process, that minds have changed, the needle 
moves. It does increase mutual understanding and respect 
which----
    Mr. Shays. Let's deal with that. That deals more with what 
I would call the elites within the society, those whose lives 
alternately--I mean, they have gotten an opportunity to be in a 
sports program. They have gotten an opportunity to be in a 
cultural exchange. It's not the everyday Iraqi that happens to. 
How about with the everyday Iraqis?
    Ms. Harrison. Within the last 3 years we have made a 
concerted effort to move beyond the elites, to work with our 
missions and go beyond what I call the traditional Rolodex to 
get out into different areas where we know talent resides, but 
which are economically disadvantaged. This is what our PLUS--P 
for L PLUS program is about.
    Mr. Shays. Let me put it this way, but ultimately, it's 
reaching a tenth of a percent, or a percent. About the 99 
percent who are left over? That is what? How do we deal with 
that?
    Ms. Harrison. We're dealing with that through other forms 
of communication. We're going to be dealing with that--
measuring that through the Internet. Now, right now the way to 
measure through the Internet is how many hits. For example, we 
have a new Web site in Persian, and what we're seeing is 
increasing numbers of people who are going to that Web site. 
And we also know that in Iran there is a proliferation of Web 
sites where they discuss freedom. And right now the evaluation 
is that people are reading what's on our Web site. They're 
coming back and reading more. We're measuring a new product 
called Hi Magazine that also has a Web site.
    So the measurement and evaluation move beyond how many 
people just viewed something, that doesn't mean they agree with 
it, but then how many people come back to it over and over and 
over? Then you have the chat rooms that go along with that. 
Then there are ways to monitor in terms of audience share for 
radio and television.
    Mr. Tomlinson. For us, it's are you listening to us and do 
you believe what we're saying.
    Mr. Shays. Mr. Evers, do you want to do another crack at 
this?
    Mr. Evers. Sure, thank you. I just wanted to read what the 
9/11 Commission Report said about this. They said agencies need 
to be able to measure success. Targets should be specific 
enough so that reasonable observers in the White House, the 
Congress, the media, and the general public can judge whether 
or not the objectives have been attained, which is what you 
continue to ask us here. And I think that the target is 
different for different countries.
    It seems to me that one of our objectives ought to be that 
the political leaders of countries have the courage to support 
America and not fear that they'll either be thrown out of 
office if they're in a democracy, or overthrown if they're not 
in a democracy. And I think if you look at a country like 
Pakistan, where you have a president who's had the courage to 
stand with us in spite of public opinion that's against him, 
he's been able to figure out a way to make it seem logical in 
his country to work. And so whatever that model is, maybe that 
would work somewhere else.
    One of the ideas that we're going to have in our report is 
that we're going to propose a way to assess program 
effectiveness might be through the evaluation of a test region. 
The selected region would receive increased funding for a 
variety of public diplomacy programs structured around a 
cohesive strategy and funded through supplemental funding from 
Congress, where you would take public diplomacy programs, 
education programs, Department of Commerce programs and go into 
a region or a country and really try to make a difference in 
that area and come out and see whether it works or not.
    This isn't a novel idea. The British do this right now 
every year. They have a different country that they go to and 
they coordinate their government around what they're going to 
do. And they go in, they do advertising, they do job fairs, and 
they do all sorts of things to move people toward them.
    Mr. Shays. I think what I'm probably wrestling with is if I 
define public diplomacy as ultimately doing the right thing, 
however we define that, as presenting an alternative, and that 
how we communicate is part of the public diplomacy but isn't 
the extent of public diplomacy, I mean I realize, Mr. 
Tomlinson, this goes well beyond you. You're the third part of 
this effort. How would you define public diplomacy? And then I 
would get on to the next panel. Maybe I'm having an incorrect 
view of public diplomacy here.
    Mr. Tomlinson. I would define it as conveying our values to 
people around the world, conveying what we are, what our goals 
are for the world.
    Mr. Shays. OK. See, I added more. I added economic 
assistance as part of public diplomacy.
    Mr. Tomlinson. That's a part. That's a part. A part of what 
we are is giving people the opportunity to work hard through a 
free economic system and produce benefits and a better future 
for their children.
    Mr. Shays. Let me ask you, Secretary Harrison.
    Ms. Harrison. Yes.
    Mr. Shays. If we are pursuing goals as a country that make 
your job in portraiting our country well difficult, is that 
part of your job, to convey to others like we are headed in the 
wrong direction, no matter what we tell them, as long as we 
keep doing these things, we're going to be digging a deeper 
hole in terms of public diplomacy; is that part of your job?
    Ms. Harrison. Yes, it is, and if I can--my definition, 
which I use in a lot of speeches, is basically people-to-people 
diplomacy, and people-to-people impact has become much more 
important. We talk about the Arab strength. We talk about 
strategic communities. They have the ability to topple 
governments, to change perceptions. We can look at a recent 
election in India which was a surprise, and when you look at 
how that happened you see the power invested in people beyond 
urban centers and rural centers.
    This Secretary has brought public diplomacy to the policy 
table and literally to the table every morning. Every single 
morning at 8:30 he meets with his Assistant Secretaries and 
Under Secretaries, and it is a quick trip around the world 
where you can hear what's going on in every region. You can 
hear what his focus is, and he also listens to us. So we do 
have a seat at the table. We're not over in a stovepipe 
somewhere coming up with these things.
    He and the Deputy Secretary are committed and understand 
the value of public diplomacy, even as governments are engaged 
in necessary traditional diplomacy, and he puts high value on 
these programs, and he is very supportive of what public 
diplomacy can do.
    Mr. Shays. President Kennedy invited the leader of the 
African states to the White House. He had a cultural sense that 
very few Presidents had, or somebody in his staff did. He said, 
when that leader comes, invite him not to the East Room and the 
West Room for a State dinner; invite him up into your personal 
headquarters, because that's how you honor people in so many 
societies. When I was in the Peace Corps, there were two rooms. 
One was the public and one was what was the sleeping part, the 
quarters, and if you were invited to interact with a chief in 
that room there, he was paying you a tremendous respect that he 
would invite you into a kind of inner sanctum.
    Well, when President Kennedy did that, it electrified 
Africa because the word got around that he had invited this 
leader into his personal home. And there are still, believe it 
or not--or there were when I was in the Peace Corps in the 
South Pacific--pictures of Kennedy, still remembering this 
culturally sensitive President who electrified the Third World.
    I have been to Iraq now six times, and four times outside 
the umbrella of the military. Every Iraqi told me that why are 
we disbanding the military, the police and the civil service, 
the government? Whatever you portray, Mr. Tomlinson, in your 
media, that policy was so flawed you could never undo it 
because it basically said to those who were in Iraq, who had 
been involved, they had no future there. So I'm just kind of 
thinking that we've got to make sure the policy is something 
you can promote and we have the best way to promote the policy. 
At any rate, it's a work in process, isn't it?
    Ms. Harrison. Well, as Edward R. Murrow said, public 
diplomacy should be on the takeoffs and not just in the 
landings.
    Mr. Tomlinson. He said crash landings.
    Ms. Harrison. Oh, I edited that.
    Mr. Shays. No, but that's a huge point.
    Ms. Harrison. Yes.
    Mr. Shays. It's a huge point. We need to be a lot more 
culturally sensitive, and we do a lot better job, then, when we 
project our public diplomacy in the media.
    Thank you, Mr. Chairman.
    Mr. Turner. In looking at the recommendations of the 9/11 
Commission, we talked about this when the two commissioners 
were in front of us. On page 377 it says recommendation: Just 
as we did in the cold war, we need to defend our ideas abroad 
vigorously. America does not stand up for its values. The 
United States defended and still defends Muslims against 
tyrants and criminals in Somalia, Bosnia, Kosovo, Afghanistan 
and Iraq. If the United States does not act aggressively to 
define itself in the Islamic world, the extremists will gladly 
do the job for us.
    Now, what I found interesting about thisrecommendation is 
that it talks about the United States defended Muslims and it 
talks about the actions in Bosnia and Kosovo. And many times we 
will talk about the actions of defending Kuwait and liberating 
Kuwait, but in a lot of the language and how it has interpreted 
what was done in Kuwait, and it refers to war with Iraq.
    We have the Bureau Chief of Al-Jazeera's Washington office 
who's here, and I was reading an interview that he had in 
September 2003, and in that one of the things that he talks 
about as a possible contributor to the September 11th event is 
the first Iraq war.
    And so I wanted to ask you, one, about the issue of our 
policies, and don't we have one of the conflicts being how we 
view our policies and how others are viewed? And second, I 
would like you to comment on--the report says recognizing that 
Arab and Muslim audiences rely on satellite television, and Al-
Jazeera certainly being so prominent, I'd love your thoughts 
and questions as to your competition.
    Ms. Harrison. Well, I think I will let Ken talk about the 
competition.
    And in terms of your first question and how our policies 
are interpreted, if I could push a button, I would have many, 
many more speakers, many more people engaging, Americans going 
to the region. We can't do this just one-way, even as powerful 
as exchanges are.
    And what I hear from our Ambassadors and our people in the 
posts, when they put together, as they do, these seminars, and 
in many of the cultures and Muslim and Arab countries, they 
would rather have dialog one on one, a long period of time 
where you sit--and I realize this isn't thousands of people, 
but it can be televised, as was this Indonesian town hall 
meeting, as a result of former Under Secretary Beers' shared-
values initiative.
    Anything that leads to dialog. After these seminars, we 
asked them to evaluate it on a lot of different levels in terms 
of policy, mostly policy.
    I'm not going to tell you, that they then agreed with 
America's policy, but we did find a majority say, if you 
consider the needle moving, we now understand what the policy 
was based on. We may not agree with it, but we no longer are 
indulging in conspiracy theories, or we're not ascribing it to 
something that's negative; we may not agree with you, but we 
now believe that America isn't going to take over our country 
and stay forever. The challenge of these kinds of dialogs is 
that they are one on one, and we have to find a way to magnify 
them in a way that doesn't undermine the very essence that 
allows people to speak freely.
    Mr. Turner. Mr. Tomlinson.
    Mr. Tomlinson. Mr. Chairman, this Washington bureau chief 
of Al Jazeera, he's nice and all, and I like his wife a lot--
she is an employee of VDA--and I don't mean to say ugly things 
about his publication with his being present here with us, but 
I think he'll understand.
    Imagine if people in the United States had their view of 
the world based on the National Enquirer or the worst of our 
tabloids. That would be the way people, Arabic-speaking people 
in the Middle East have received----
    Mr. Shays. I have a hard time hearing you, Mr. Tomlinson.
    Mr. Tomlinson. I'm sorry. I said, after saying all of these 
nice things about my journalistic colleague back here----
    Mr. Shays. I got that part.
    Mr. Tomlinson [continuing]. Imagine if people in the United 
States had their view of the world based on the National 
Enquirer or the worst of tabloids, that would give you a sense 
of what the people of the world have received through the 
broadcasting of Al Jazeera.
    They call American troops ``occupiers.'' They 
sensationalize. I hear that Al Jazeera has issued a new 
standard or code of conduct, and I look forward to the impact 
that Al-hurra is going to have on the satellite broadcasters. 
Because the great thing we found about Radio Sawa news during 
the war is, we were accurate.
    When the news was good from our side, we gave it to people. 
When the news wasn't, we gave it to people, and people came to 
turn to Sawa News because they wanted to know what was 
happening in the world and they wanted to know what the 
happening right then and there.
    You know, if you tailor your news, it takes a while to put 
it together. So I'm very pleased that we're finally in the 
Arabic satellite game, because I think we're going to have a 
significant impact on our competition, and I think we may even 
help them clean up their shows.
    Mr. Turner. Mr. Evers, Mr. Ford, do you have any comment?
    Mr. Evers. Mr. Chairman, your question at the very 
beginning, your first part, Is it hard to talk about American 
policies when people don't agree with them? And I think the 
classic is--when you talk to Muslim-Arabs, is our relationship 
with Israel as it relates to Palestine; and the fact is, this 
falls under the ``do the right thing.''
    I mean, we support Israel because we have a special 
relationship with them, a moral obligation to see them succeed. 
They're one of the only democracies in the area. They are a 
huge ally of ours, and it is our policy--I believe, is the 
right policy--which you would not find a terrible lot of Arab-
Muslims that would agree with us on that. And so it is the 
right thing for us to continue to talk about that, but it is a 
very hard obstacle for us to get over, because they do not 
believe like we do on that.
    We have the first President, Republican or Democrat, ever, 
to call for a Palestinian state. You've got Ariel Sharon, who 
is calling to move settlements and being attacked by his own 
party for doing so, but yet we don't really get credit for any 
of that.
    But the answer is, yes, it's very hard sometimes with our 
policies, whether you agree or disagree with them; if the 
people you're talking to don't agree with them, it's hard to 
get through that.
    Mr. Ford. I don't have much to say about the policy end, 
but I can say that I think that our research indicates that we 
can do a better job of touting things that we're doing that are 
positive in nature.
    When we did a survey for--last year in Egypt, for example, 
we found many Egyptians were not aware of the sizable amount of 
foreign aid that we provide to that country, and we've been 
providing it for 2 decades now. So I think there are things 
that we can do to better show some of the positive things that 
we're doing out there.
    I know in the case of AID, they have some restrictions on 
what they can do, but there's room for improvement in those 
areas.
    Mr. Turner. Thank you, Mr. Chairman.
    Do any of you have anything you would like to add in 
closing from the discussion?
    If not, we thank you for your time.
    Mr. Shays. Thank you all very much.
    Mr. Turner. Thank you for your participation.
    We'll turn, then, to our next panel, panel No. 3. It will 
include Keith Reinhard, who is the president, Business For 
Diplomatic Action, and chairman, DDB Worldwide. He's 
accompanied by Gary Knell, president and CEO of Sesame 
Workshop.
    Also, we'll hear testimony from Charlotte Beers, former 
Under Secretary of State for Public Diplomacy and Public 
Affairs, Department of State. Also, we'll have testimony from 
Dr. Rhonda S. Zaharna, associate professor of Public 
Communication, American University. Finally, we have testimony 
from Hafez Al-Mirazi, Bureau Chief, Al Jazeera, Washington 
office.
    Mr. Shays. Please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
responded in the affirmative.
    We'll begin with Charlotte Beers.

STATEMENTS OF CHARLOTTE BEERS, FORMER UNDER SECRETARY OF STATE 
  FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, U.S. DEPARTMENT OF 
   STATE; KEITH REINHARD, PRESIDENT, BUSINESS FOR DIPLOMATIC 
ACTION, AND CHAIRMAN, DDB WORLDWIDE; GARY KNELL, PRESIDENT AND 
    CEO, SESAME WORKSHOP; DR. RHONDA S. ZAHARNA, ASSOCIATE 
  PROFESSOR OF PUBLIC COMMUNICATION, AMERICAN UNIVERSITY; AND 
  HAFEZ AL-MIRAZI, BUREAU CHIEF, AL JAZEERA WASHINGTON OFFICE

    Ms. Beers. Thank you. This is my first hearing as a private 
sector person.
    I think public diplomacy has kind of had a diminishing in 
terms of the people's perception of what it means, not only in 
our own press, but in our government and maybe in our country. 
It has a connotation of propaganda, which in this country is 
sometimes very negative. It can be seen as a pitch, an example 
of arrogant advocacy. And what I like so much about the 
opportunity of being here today is that you have really raised 
the eyes off that page and described and defined the job in a 
much more comprehensive way. It's worth repeating.
    You have asked us to consider something no less than moral 
leadership, a demonstration of generosity and caring, to defend 
and define our core values and to create an environment for 
moderates for reform and freedom. That's all.
    That's a pretty big job, but I have a feeling that the 
American people are hoping we can pull this off and would 
approve of these goals, because it's time for us to think of 
ourselves as bridge-builders, as well as all the other facets 
of who we are in the world.
    But because we've been so isolated and because our enemies 
are seen as heroes in the countries in the Middle East, I think 
we have to start with a modest goal.
    You ask often, what is the message, and I think that the 
beginning of the communication effort has to be only a simple 
goal of mutual understanding. That's the place we have to 
start, and then we can advance to those subjects on which we 
can agree. The end result of that will promote national 
interest, but you can't start the other way around, because 
there's not enough humility in it.
    The message: The message has to be words verified by deeds 
and programs and experiences, people to people, over time and 
consistently, which is not easy to do and is not anything we've 
done in the recent past.
    The elements of the strategy, as far as I'm concerned, are 
that core values are crucial, and it's very fascinating to me 
that a number of the core values we rate tops are shared by 
Arab and Muslim families, and they would be stunned to hear it. 
And as conflicted as they are about the United States, they are 
very openly eager to learn science, to give us credit for math 
expertise, to take English, because it's the language of the 
computer world.
    So we have plenty of opportunities. The problem is, we're 
not equipped today to deliver on these kind of large-scale 
tasks.
    I personally think there's a clear problem in not having a 
central leadership. I felt it greatly when I was----
    Mr. Shays. I'm sorry. Not having a what?
    Ms. Beers. A central leadership to guide, as a team, the 
strategic direction of public diplomacy and then have the power 
to cause it to happen in all the constituencies.
    There's not a company in the world who would agree to run 
fragmented businesses without a central leadership, and any 
time they did, they got in terrible trouble.
    We have too many uneven and diverse messages taking place, 
sometime quite inadvertently. There's a dearth of skills in the 
State Department and in some of our other efforts to do modern 
communication content and delivery and research. Research is 
not poll taking. Research is a very sophisticated game done by 
experts that understand insight, feelings, emotions and content 
and can help predict attitudes and then behavior.
    So it's not a game for people who don't really understand 
how to do it. And you're asking us to consider measurement, and 
that's a very important aspect to it.
    The purpose of all of these kinds of skills is to build 
relationships that will last longer than any foreign policy 
issue, so that they are absolutely crucial to our well-being.
    Now, with the very best of intentions, it seems to me that 
USIA's integration into State has caused certain aspects of 
that organization to be weakened. It is limited in its ability 
to adapt, to take initiatives and to create new solutions. Even 
with Secretary Powell's clear support, it has been difficult to 
get new initiatives and follow through with separate funding 
for work we need to do to answer those goals you've laid out. 
The public diplomacy field staff often reports to three 
different bosses, because the structure has been cobbled 
together, and most of those bosses are focused on traditional 
diplomacy.
    There is little training. The first annual meeting of the 
public diplomacy field staff was the first year that I was in 
that office, and it was a very controversial decision that had 
never come together. And you can't bring in new people, as we 
could have done, because the security clearances in the State 
Department are so difficult.
    It's not really a lack of goodwill. It is simply divergent 
tasks.
    The traditional diplomacy, which I'm calling the main work 
of the State Department, has exceptionally qualified people who 
are creating a vital dialog with our key governments. They 
interpret and define with their counterparts the very meaning 
and context of foreign policy. It's hard to imagine a more 
important job, but it is by its definition discreet, slow-
moving and secretive.
    On the other hand, public diplomacy makes this group of 
people quite nervous. It's very public. Its job is to engage a 
whole bunch of people with widely diverse interests and topics, 
and we're after long-term relationships that have emotional and 
tangible subjects, such as religion and trust and freedom, 
involved.
    Given the totally different task that traditional diplomacy 
and public diplomacy have, it's hard to see that this is the 
right place for you to take us to task for all kinds of what 
you call ``reinvigoration'' under the present structure at the 
very least.
    Now, there is a lot we have to work with. I mean, you can't 
listen to that last panel without being, I think, admiring of 
the work that's gone forward in terms of all of the public 
diplomacy efforts that are taking place at State in terms of 
these new adventures, and also at the BBG.
    And we learn from the exchanges. We know that anyone who 
comes to the United States has a transforming experience here, 
but there's only 25,000 of them a year, and we have to deal 
with the issue of scale. If we do not take this story and our 
ability to cause exchanges with one another to the countries in 
large enough numbers to make a difference, I don't think we can 
answer the request for the job description you laid out.
    So it isn't enough to just expand the programs that we 
have. You're going to hear some very interesting stories about 
the private sector, and I think that somehow the public 
diplomacy center that you will eventually, I hope, devise will 
need to be very powerful partners with the private sector. You 
can't expect them to get this done without that kind of 
important arm in the service.
    We have in the United States amazing musicians, athletes, 
teachers, business people who will be very interested in going 
to do their part. They are willing to go to countries to stay 
there, to teach, to take part in much more complicated ways 
than we've ever devised, but we don't have the means, the fund 
or the system to activate them.
    But there's a lot of that work done on a small basis today 
in the State Department. There are charming and efficient ways 
to teach science, computer skills and English on the local TV 
channels in the key countries. There are departments of 
American studies that we could ask universities throughout the 
Middle East to take.
    Our own Library of Congress has the largest collection of 
Arab books in the world. Why aren't we translating those, 
putting them beside a comparable American history and putting 
that in an American studies class? Think how many people would 
come through there as compared to the painstaking one-person-
at-a-time contact that we have been doing in the past.
    It's possible digitally to connect a teen in Idaho with a 
teen in Cairo. It is possible to take partnerships with local 
TV and radio stations in these countries and run stories about 
what USAID is doing.
    The reason the people in Egypt don't know about the 
programs is, everyone agreed we wouldn't tell them, and USAID, 
when asked to take part in communicating the brand of the 
United States, said, We have no people or mandate to do that. 
But in spite of that, they've done some impressive 
coprogramming with local TV shows in the country to say, Look, 
there's this little brand-new water system we have in Cairo 
which has literally transformed a region of that city.
    It's unacceptable, I think, to be silent about American 
generosity. We could do much more innovative things if we felt 
free to take the initiative.
    It's possible to make a virtual reality room where we build 
not a library which is kind of old form, frankly, or an 
American corner, but we create one in a virtual reality. We 
make it so much fun to go into, and we put in it a shopping 
mall in Rabat. And at one time we had the Smithsonian 
Institution working on that sort of thing.
    So I'm actually----
    Mr. Turner. Secretary Beers, we'll need you to wrap up 
your--just conclude your comments.
    Ms. Beers. May I conclude? Thank you for signaling me. This 
is the danger of being enthusiastic and running amuck.
    Mr. Shays. We love it. We love it.
    Ms. Beers. One thing I don't want to leave without saying--
please don't buy the idea that the United States can't be the 
messenger. We do not have a choice. There are ways that smart, 
talented people can get that across. And furthermore, we can't 
afford to stand for just foreign policy and military might.
    Thank you very much.
    [The prepared statement of Ms. Beers follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.064
    
    [GRAPHIC] [TIFF OMITTED] T8211.065
    
    [GRAPHIC] [TIFF OMITTED] T8211.066
    
    [GRAPHIC] [TIFF OMITTED] T8211.067
    
    Mr. Turner. Mr. Reinhard.
    Mr. Reinhard. Thank you, Chairman Shays, members of the 
subcommittee. Thanks for inviting me here today. It's an honor.
    Mr. Chairman, I brought a few slides to help me summarize 
my very long written testimony so, DJ, if we're ready back 
there.
    Let me begin with a statement you included in your 
invitation, ``If the United States does not act aggressively to 
define itself in the Islamic world, extremists will gladly do 
it for us.''
    I respectfully suggest that we step back a bit and view the 
Middle East as part of a much larger problem. The problem of 
America's reputation is not confined to the Islamic world, 
which means it would not be wrong to paraphrase the 
Commission's statement. If the United States does not act 
quickly and intelligently to define itself in the post-
September 11 world, our detractors across the globe will do it 
for us. Two recent, if small, examples were this illustration 
on the front page of the German edition of the Financial Times 
and this image from Middle East Online just last Friday.
    I claim no expertise in government or foreign policy, but 
as a concerned U.S. citizen and international businessman, I 
enlisted some of the most preeminent professionals in the 
fields of global communications, marketing, research and media 
to form business for diplomatic action, a nonpartisan, not-for-
profit organization whose purpose is to mobilize and harness 
the private sector in a separate but parallel effort to augment 
whatever the government is doing to reverse the alarming 
decline in America's reputation.
    Let me be clear. This effort is not about ads or selling. 
BDA does not stand for ``business for diplomatic advertising''; 
it stands for ``diplomatic action.'' Because my background is 
advertising, I frequently take these paddles with me to remind 
it's not about ads, it's about actions.
    Because listening is the most important part of any 
communications process--and not, by the way, an attribute 
normally associated with Americans--the first brief we gave to 
ourselves was a line from the Scottish poet, ``O would that God 
the gift might give us, to see ourselves as others see us.'' 
And our listening confirmed that the image of America, as you 
know, is a montage of our foreign policy, our global brands and 
our entertainment product. It's a mix which you are we 
sometimes refer to as a ``Rummy and Coke with Madonna on the 
side.''
    Should there be any doubt that government and commercial 
actions are inextricably linked, one need only review the 
political cartoons in the foreign press the day after Saddam 
was toppled. A careful analysis of all our listening efforts 
revealed four important root causes for the rise in anti-
American sentiment around the world--U.S. foreign policy, as 
we've been discussing, but there are others: the effects of 
globalization, so many people are feeling left out or left 
behind, the pervasiveness of American popular culture and our 
collective personality.
    BDA believes that an activated U.S. business community can 
effectively address the last three. This slide shows some of 
the most prominent positives and negatives that we have found 
in how others see us; and to paraphrase Johnny Mercer, we see 
BDA's job then as one of ``accentuating the positive and 
eliminating the negative.'' To do both means engaging people in 
both the United States and abroad.
    Let me just touch on a few projects we have underway. 
PepsiCo has paid for the initial distribution of this little 
World Citizens Guide to the 200,000 young Americans who will 
study abroad next semester. The content was provided by 
respondents in the 130 countries we asked for advice for 
Americans traveling abroad. The response was robust, candid and 
prescriptive. This little booklet, an advanced copy we've given 
you, is not a travel guide for young Americans. Rather, it's a 
compendium of insights that arouse their interest in the world 
and move them a little closer to a global mind-set.
    This page says, It might be better if you don't compare 
everything we do here in this country to how it is back home in 
America. We also plan an abridged version of the guide for 50 
to 60 million Americans who travel outside the United States 
each year.
    Everyone acknowledges the importance of exchange programs. 
We hope to find new ways of bringing the value of these 
programs to life and share them in with mainstream mass 
audiences. One approach to this notion is a treatment we've 
developed for a reality show featuring interns from Iran, 
perhaps, working inside a U.S. multinational corporation here 
and then Americans interning in foreign offices of the same 
multinational. In the final episode, the CEO of that company 
may even say, You're hired.
    Now, to the Middle East, I am bothered by the emphasis on 
exporting American values. These people have values of their 
own, and as Secretary Beers said, we can connect with some 
shared values. I agree with the witness who was formerly with 
Reader's Digest, or at least I agree with their old headline 
writer's rule which said, Always start where the reader is; 
don't start where you are.
    In the Middle East especially, we need messages that 
inspire hope and promise to youth at a very early age. Gary 
Knell, President and CEO of Sesame Workshop, is an active BDA 
board member. He's here with me today. He has vast experience 
in enabling locally produced children's programming, especially 
in the Arab world. I know you'll have questions for him. This 
is an activity BDA is supporting.
    Although you may be anxious to create effective messages 
from the U.S. Government to the Middle East, I respectfully 
suggest that even with careful planning, such efforts at this 
time are likely to meet with failure. Based on everything we 
know and hear from the region, the U.S. Government is simply 
not a credible messenger. The implication for this committee, 
Mr. Chairman, is to guide the U.S. Government to give real 
support and incentives to empower and activate credible 
messengers who can begin the process of bridge-building, even 
as the government embraces and enacts previous recommendations 
to dramatically overhaul the management of our public diplomacy 
efforts.
    Other BDA projects are included in your handout.
    Mr. Chairman, in crafting a response to the challenge posed 
by the 9/11 Commission, BDA would recommend you use the same 
strategy development process that we in the marketing world use 
for any major global brand in trouble or any company being 
attacked by a competitor wishing to destroy it or diminish it.
    The process is outlined in my written testimony. I've 
provided one of the representative worksheets from that process 
for your consideration.
    I'd like to close my remarks with a simple way to portray 
this state of America's reputation and a way we might think 
about it. This is the sigmoid for identification curve. We 
often use it to diagram the life of a product or a corporation 
or our careers or our very lives.
    We wobble a bit getting started. Then we flourish and grow, 
and then at the end of the life cycle we start to wane again. 
The good news is that for organizations, states and 
reputations, there is life beyond the curve if we are smart 
enough, astute enough to start a curve.
    The integrity of an organization is maintained by making 
sure that core values are preserved, perhaps even reemphasized 
as a new curve begins. But not everything stays the same. 
Typically, what got you from A to B will not get you from B to 
C. In the business world, the nature of the competition may 
have changed. In our larger world, the nature of our struggle 
has changed.
    At the risk of oversimplifying, it seems to me that while 
in the years preceding September 11, we could lead the world by 
force, in the days to come, we must learn to lead the world by 
influence and example.
    Mr. Chairman, Business for Diplomatic Action stands ready 
to help in whatever way we can. Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Reinhard follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.068
    
    [GRAPHIC] [TIFF OMITTED] T8211.069
    
    [GRAPHIC] [TIFF OMITTED] T8211.070
    
    [GRAPHIC] [TIFF OMITTED] T8211.071
    
    [GRAPHIC] [TIFF OMITTED] T8211.072
    
    [GRAPHIC] [TIFF OMITTED] T8211.073
    
    [GRAPHIC] [TIFF OMITTED] T8211.074
    
    [GRAPHIC] [TIFF OMITTED] T8211.075
    
    [GRAPHIC] [TIFF OMITTED] T8211.076
    
    [GRAPHIC] [TIFF OMITTED] T8211.077
    
    [GRAPHIC] [TIFF OMITTED] T8211.078
    
    [GRAPHIC] [TIFF OMITTED] T8211.079
    
    [GRAPHIC] [TIFF OMITTED] T8211.080
    
    [GRAPHIC] [TIFF OMITTED] T8211.081
    
    [GRAPHIC] [TIFF OMITTED] T8211.082
    
    [GRAPHIC] [TIFF OMITTED] T8211.083
    
    [GRAPHIC] [TIFF OMITTED] T8211.084
    
    [GRAPHIC] [TIFF OMITTED] T8211.085
    
    [GRAPHIC] [TIFF OMITTED] T8211.086
    
    [GRAPHIC] [TIFF OMITTED] T8211.087
    
    [GRAPHIC] [TIFF OMITTED] T8211.088
    
    [GRAPHIC] [TIFF OMITTED] T8211.089
    
    [GRAPHIC] [TIFF OMITTED] T8211.090
    
    [GRAPHIC] [TIFF OMITTED] T8211.091
    
    [GRAPHIC] [TIFF OMITTED] T8211.092
    
    [GRAPHIC] [TIFF OMITTED] T8211.093
    
    [GRAPHIC] [TIFF OMITTED] T8211.094
    
    [GRAPHIC] [TIFF OMITTED] T8211.095
    
    [GRAPHIC] [TIFF OMITTED] T8211.096
    
    [GRAPHIC] [TIFF OMITTED] T8211.097
    
    [GRAPHIC] [TIFF OMITTED] T8211.098
    
    [GRAPHIC] [TIFF OMITTED] T8211.099
    
    [GRAPHIC] [TIFF OMITTED] T8211.100
    
    [GRAPHIC] [TIFF OMITTED] T8211.101
    
    [GRAPHIC] [TIFF OMITTED] T8211.102
    
    [GRAPHIC] [TIFF OMITTED] T8211.103
    
    [GRAPHIC] [TIFF OMITTED] T8211.104
    
    [GRAPHIC] [TIFF OMITTED] T8211.105
    
    [GRAPHIC] [TIFF OMITTED] T8211.106
    
    [GRAPHIC] [TIFF OMITTED] T8211.107
    
    [GRAPHIC] [TIFF OMITTED] T8211.108
    
    [GRAPHIC] [TIFF OMITTED] T8211.109
    
    [GRAPHIC] [TIFF OMITTED] T8211.110
    
    [GRAPHIC] [TIFF OMITTED] T8211.111
    
    [GRAPHIC] [TIFF OMITTED] T8211.112
    
    [GRAPHIC] [TIFF OMITTED] T8211.113
    
    [GRAPHIC] [TIFF OMITTED] T8211.114
    
    [GRAPHIC] [TIFF OMITTED] T8211.115
    
    [GRAPHIC] [TIFF OMITTED] T8211.116
    
    [GRAPHIC] [TIFF OMITTED] T8211.117
    
    [GRAPHIC] [TIFF OMITTED] T8211.118
    
    [GRAPHIC] [TIFF OMITTED] T8211.119
    
    [GRAPHIC] [TIFF OMITTED] T8211.120
    
    [GRAPHIC] [TIFF OMITTED] T8211.121
    
    [GRAPHIC] [TIFF OMITTED] T8211.122
    
    [GRAPHIC] [TIFF OMITTED] T8211.123
    
    [GRAPHIC] [TIFF OMITTED] T8211.124
    
    [GRAPHIC] [TIFF OMITTED] T8211.125
    
    [GRAPHIC] [TIFF OMITTED] T8211.126
    
    [GRAPHIC] [TIFF OMITTED] T8211.127
    
    [GRAPHIC] [TIFF OMITTED] T8211.128
    
    Mr. Turner. Dr. Zaharna.
    Dr. Zaharna. Thank you, Mr. Chairman. And I thank you for 
keeping the spotlight on public diplomacy. I think it's going 
to lead to making not only America but the world a lot safer.
    Sir, you asked us to step back and to view the 9/11 
Commission's recommendation within the larger picture. This 
oral statement provides a brief snapshot. The written statement 
for the record provides what I see in more detail.
    First, the reviews of American public diplomacy over the 
past 3 years, including the recent 9/11 Commission Report, pin 
America's communication problem on lack of strategy. They say 
America needs a strategy so it can focus its message, 
coordinate efforts and measure results.
    Sir, when communication lacks a strategy, the results tend 
to be random. You win some, you lose some, hit or miss. 
American public diplomacy, on the other hand, has had a fairly 
pronounced losing streak. That strongly suggests a strategy.
    Second, stepping back and looking at the larger picture, 
the strategy is clear. Since the terrorist attack, America has 
aggressively pursued an information battle strategy, borrowed 
from the cold war. The national security strategy put the war 
of ideas second to the military war. The battle for the hearts 
and minds has been a charge reverberating through the political 
halls of Washington to the front pages of hometown newspapers.
    The 9/11 Commission echoed that strategy. Just as we did in 
the cold war, we need to defend our ideas abroad vigorously.
    Three, fighting an information battle was ideally suited 
for the cold war era. Then you had two identifiable government 
powers dominating the political as well as the communication 
landscape. The bipolar context inherently defined the messages. 
``us versus them'' had persuasive power. Governments could 
control information. Foreign and domestic audiences were 
separated by an ocean that technology struggled to cross.
    Public diplomacy was a product made in America and shipped 
overseas. Achieving information dominance was key to silencing 
the opponent. In an information battle, the one with the most 
information wins.
    Four, fighting an information battle has become the 
equivalent of conventional warfare. The strategy lacks the 
agility and effectiveness to navigate today's dynamic political 
and communication terrain. The bipolar political context has 
proliferated into a multipolar one. Culture has replaced 
nationalism as the prevailing dynamic, filtering and distorting 
even the best message that America can design.
    Regional conflicts, once masked by the superpower rivalry, 
have surfaced with a vengeance. For the publics absorbed in 
these conflicts, American policy is the message of American 
public diplomacy. America's domestic and foreign publics have 
become one 24-7 global audience.
    Today, communication is about exchanging information. In a 
world suffering from information overload, disseminating 
information is spam. Networking is strategic.
    Finally, American public diplomacy needs to switch its 
strategic focus. Forget battles. Think bridges. To win hearts 
and minds, American public diplomacy needs to bridge the 
perception gap between Americans and foreign public. 
Disseminating information cannot do this. Building bridges can. 
Aggressively pursued, this strategy can cross the political and 
cultural hurdles.
    This strategy of building bridges is not new. The Fulbright 
program, the Peace Corps represent America's long tradition of 
building bridges. What is new is the strategic power of this 
technique. Building bridges, networking, underlines the growing 
influence of nonstate actors.
    A woman in Maine began with the idea that led to the 
campaign to ban land mines. She received the Nobel Peace Award. 
A man in a cave in Afghanistan had another idea. As the 9/11 
Commission so thoroughly detailed, al Qaeda is also a network.
    In yesterday's information battle, the one with the most 
information won. Today, the one with the strongest and most 
extensive network wins. Achieving this strategic goal requires 
new tactics to identify potential links, create relationships 
and forge a network. My written statement outlines some of 
these tactics; undoubtedly, there are more.
    Communication research also has emerged to measure the 
quality of relationships. The quality of America's political 
relationships impacts America's image. Using these new research 
tools will help measure American public diplomacy effectiveness 
more accurately and meaningfully. In its recommendation, the 9/
11 Commission began with a call for institutionalizing 
imagination.
    For American public diplomacy to be as effective as it 
was--for American public diplomacy to be as effective in the 
war on terrorism as it was during the cold war, America needs 
to imaginatively explore a new strategic focus. To win the 
hearts and minds, America needs to forget the battles and think 
bridges.
    Sir, before I close, I must recognize a communication 
professional who took the reins of American public diplomacy 
during extraordinary circumstances and led with extraordinary 
vision and energy. Thank you, Under Secretary Beers.
    And Representative Shays, I thank you for your continued 
pursuit to improve American public diplomacy and urging this on 
the committee. Your trip last week is the epitome of building 
bridges, as was your work in the Peace Corps. It's a strategic 
direction that holds the promise for, as the September 11 
committee advocated, making America safer. Thank you.
    [The prepared statement of Dr. Zaharna follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.129
    
    [GRAPHIC] [TIFF OMITTED] T8211.130
    
    [GRAPHIC] [TIFF OMITTED] T8211.131
    
    [GRAPHIC] [TIFF OMITTED] T8211.132
    
    [GRAPHIC] [TIFF OMITTED] T8211.133
    
    [GRAPHIC] [TIFF OMITTED] T8211.134
    
    [GRAPHIC] [TIFF OMITTED] T8211.135
    
    Mr. Turner. Mr. Al-Mirazi.
    Mr. Al-Mirazi. Mr. Chairman and distinguished members of 
the subcommittee, I want to thank you for this opportunity to 
talk to you today about the 9/11 Commission, the report's 
recommendations on public diplomacy.
    I'm glad that the Arab media is being included in the 
discussion of what should be done, instead of being excluded 
and blamed for bearing bad news. This hearing reflects a 
sincere attempt to diagnose the nature of the problem instead 
of finding a scapegoat for the challenges the United States 
faces today in the Middle East. And as they say, diagnosis is 
half the treatment.
    Sometimes it's easier to talk about what is not the 
problem. There is a general misconception that the Arab media--
and Al Jazeera in particular, that I am presenting here--is a 
major cause of the rising anti-American sentiment in the Arab 
and Muslim world. By the way, there is an interesting parallel 
in that many Arabs and Muslims blame the U.S. media for 
reinforcing anti-Islamic sentiment and negative perceptions of 
Arabs and Muslims, but I believe neither is the case.
    A recent Zogby International poll of 3,300 adult Arabs in 
six Arab countries shows that Arabs who have been to the United 
States, who know Americans, or who have learned about the 
United States from watching U.S. television, are as angry with 
the U.S. foreign policy and have nearly as unfavorable 
attitudes toward the United States as those who have no such 
direct experience. Media, or medium, I don't think is the main 
reason.
    The work of Professor Shibley Telhami of the University of 
Maryland has also clearly shown that Arab media, exactly--if we 
would like to criticize--like the American media, is more 
market-driven than commonly understood, and that it does not 
shape opinion as much as it reflects it and responds to it. So 
as most experts in the Arab world agree, the main problem is 
not the media; it is U.S. foreign policy in the Middle East 
that is the main source and cause of anti-American sentiment in 
the region--in my view, as well.
    Unfortunately, post-September 11 U.S. policies did not 
elevate the existing problem, but instead exacerbated it. 
Before the invasion of Iraq, the United States was criticized 
for its perceived role in supporting Israel's occupation of 
Palestinian territories. Now the United States is widely 
perceived in the Arab world as itself the occupying power of 
yet another Arab-Muslim population, the Iraqis. We're dealing 
here with perceptions.
    The United States has also been criticized in the Arab 
world for its business-as-usual policy with certain 
authoritarian Arab dictators while promoting regime change in 
certain others.
    The wars in Afghanistan and Iraq did nothing to change this 
view because the United States is now seen as replacing defiant 
dictators with compliant, puppet regimes. All the efforts to 
improve U.S. standing in the Muslim world, short of making 
policy changes, are unlikely to succeed. In fact, as the 9/11 
Commission Report states, favorable ratings of the United 
States have dramatically decreased in some Muslim countries.
    For example, as was mentioned here today, the report says 
that favorable ratings for the United States in Indonesia have 
gone from 61 percent after September 11 to 15 percent just the 
last summer. And by the way, Indonesia is not an Arab-speaking 
country, so we cannot blame it on the Arabic-language program, 
Al Jazeera.
    Today's hearing is titled ``Defending Ideals and Defining 
the Message.'' Assuming that one of America's most cherished 
ideas is that of a nongovernment-controlled and independent 
press, how can you promote this ideal amongst Arabs using a 
government-sponsored, funded and controlled medium such as Al-
Hurra TV? You don't need to reinvent the wheel by creating a 
new medium that is inherently compromised by its self-serving 
goals, at least in the eyes of the Arabs.
    To give you a good example, 2 years ago the Israeli 
Government launched an Arabic language television channel 
satellite, Channel 33, in an attempt to convey its message to 
the Arab world. It was a complete failure, and they ended up 
going back to speaking through the Arab media outlets that 
already exist and that already had the trust of their viewers. 
It's worth noting here that Al Jazeera still routinely 
interviews Israeli officials and commentators.
    As for defining the message, in this age of globalization, 
media proliferation and the Internet, you can no longer 
distinguish between traditional and public diplomacy, nor can 
you distinguish between domestic and international discourse. 
Any remarks made in a press conference or in a congressional 
hearing, just like ours here, instantly reach the very audience 
you think you have time to tailor a specific message for. 
Rhetoric is instantly available and disseminated the second 
it's uttered, whether by a mullah speaking from a mosque in 
Tehran or by a decorated U.S. General speaking from a church in 
small-town America; and we should remind ourselves that the 
airwaves are just as full of anti-Muslim sentiment as anti-
American sentiment.
    I would also like to interject here that General Boyken's 
anti-Islamic remarks were first broadcast by NBC and that the 
first photos of Abu Ghraib prison were broadcast by CBS, both 
U.S. networks, not Arabs, not Al Jazeera.
    In summary, given these inherent problems with the whole 
concept of a public diplomacy, it's understandable that it's 
difficult to keep the position of an Under Secretary of State 
For Public Diplomacy filled. Not even the best advertising 
executives can help you market a product that serves you and 
not the consumer. If U.S. policymakers are confident that their 
policies in the Middle East are the right ones and do not need 
to be changed, then they should not be surprised at negative 
reaction to these policies.
    Just as U.S. officials and policymakers make the rounds of 
U.S. networks every Sunday in order to explain their policies 
to the American audience, they should do the same with the Arab 
networks, as I believe should Members of Congress that I invite 
on a daily basis to be on Al Jazeera and to speak to our 
audience. This kind of routine interaction with an already 
established and trusted media would allow these officials to 
both explain the policies and instantly gauge the reactions to 
them. This kind of engagement over the long term might lead to 
the positive changes so desperately needed on both sides.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Al-Mirazi follows:]

    [GRAPHIC] [TIFF OMITTED] T8211.136
    
    [GRAPHIC] [TIFF OMITTED] T8211.137
    
    [GRAPHIC] [TIFF OMITTED] T8211.138
    
    [GRAPHIC] [TIFF OMITTED] T8211.139
    
    [GRAPHIC] [TIFF OMITTED] T8211.140
    
    Mr. Turner. Thank you. We'll go to 10-minute rounds of 
questions, and we'll start with our chairman, Mr. Shays.
    Mr. Shays. Thank you very much. I'd like to thank our last 
speaker for being here. I think this is the second time he's 
testified before this subcommittee.
    I'm not all that aware of what members Al Jazeera has--do 
you tend to kind of focus on the Senate and get a distorted 
view, or do you invite Members of Congress to also participate?
    Mr. Al-Mirazi. No. We invite all, and your office, we have 
made many requests, unsuccessfully. We could not get you on Al 
Jazeera, and we are renewing that request of all of you.
    Mr. Shays. I was going to ask that question with that in 
mind, because I honestly don't know when we've been asked, and 
I would like to make sure that you call me personally, because 
I would like to have the opportunity to be on Al Jazeera----
    Mr. Al-Mirazi. I appreciate that.
    Mr. Shays [continuing]. For a variety of reasons.
    One of the things that's very clear to me is that, in a 
sense, we're doing the reverse of what we sometimes don't like 
about the Europeans. We've set up a government business to 
compete with the private sector.
    Is Al Jazeera owned privately, or is it owned by a 
government as well?
    Mr. Al-Mirazi. Al Jazeera is similar to the BBC, in which 
it's a public corporation. It receives grants and funds from 
the state of Qatar, but it's had its own independent board of 
directors that set the policies regardless.
    Mr. Shays. Does it have advertising as well?
    Mr. Al-Mirazi. Yes. We do have advertisement, and we were 
hoping when Al Jazeera was launched that only for 5 years would 
we receive public grants, and after that we would be like CNN 
is, relying on our own. But unfortunately, Al Jazeera found out 
that most of the people who fought against Al Jazeera in the 
Middle East--Arab regimes who didn't like Al Jazeera bringing 
dissidents to speak over there, or human rights activists to 
talk about human rights views, in addition to the pressure they 
tried to apply on the Government of Qatar, unsuccessfully--they 
found it easier to apply the pressure on their own advertisers. 
So most of our advertisers would be very intimidated and 
reluctant to advertise on Al Jazeera because of their 
government being angry at Al Jazeera.
    Mr. Shays. Mr. Knell, please feel free to participate. You 
didn't have an opening statement, but we welcome your statement 
as well.
    Is there anything that was said by another panelist that 
you would disagree with, and would want to just make a 
contrasting point?
    Mr. Reinhard. I think Secretary Beers and I may have a 
disagreement on the point about credibility of the messenger, 
and I would----
    Mr. Shays. So maybe you could elaborate what you mean.
    Mr. Reinhard. Yes.
    The testimony that was given by the report of the 
Subcommittee on Public-Private Partnerships and Public 
Diplomacy last June, and the statement in that testimony says 
that in many cases in situations, nongovernmental actors may be 
better placed to achieve a given impact than the government. It 
goes on for a paragraph, but it says, ``Government policies and 
resource allocations for public diplomacy should explicitly 
address programs that provide incentives to private-sector 
organizations to perform tasks in which the direct and obvious 
engagement of the government would be counterproductive.''
    Someone mentioned a----
    Mr. Shays. That seems like a reasonable statement. Do you 
disagree with that?
    Ms. Beers. By----
    Mr. Shays. No. That was Ms. Beers' statement, Secretary 
Beers' statement, correct?
    Mr. Reinhard. No. This was a statement of the Ian Davis 
committee saying that the government is not at this moment a 
credible messenger. Fawaz Gerges, who is a Middle East expert, 
Muslim professor, at Sarah Lawrence said, ``Arabs and Muslims 
are deeply attracted to and fascinated with the American 
idea,'' but he goes on to say, ``in the last few years so much 
focus has been on foreign relations and on the opposing 
relations between the United States and the Arab world.''
    Mr. Shays. I'm just trying to understand that. Where is the 
disagreement that----
    Mr. Reinhard. She is saying that the government is a 
credible messenger at this time, and I was----
    Ms. Beers. No, I'm not saying that. I'm saying----
    Mr. Shays. One second. Secretary Beers, I want to just 
understand it, and then you'll have plenty of time; and I 
realize this is a comment among friends for the most part and 
people with respect for each other.
    What I'm trying to understand is--I'm trying to figure this 
all out, and it would help me to know whether it might be 
subtle differences.
    And you can explain what you were saying.
    Mr. Reinhard. OK. Someone----
    Mr. Shays. So what's your position?
    Mr. Reinhard. My position is that the government at this 
point in time is not a credible messenger to the Middle East 
and would be better advised to provide incentives to other 
actors, as the previous testimony said.
    Mr. Shays. What would your position be, Secretary Beers?
    Ms. Beers. Well, we went through this experience with 
shared values, which is a series of mini-documentaries, and the 
only place we tested it in the form that Keith and I would both 
agree is substantially well researched, the process went like 
this: People were able to see these stories about Muslims in 
America five or six times, and in the first wave of exposure 
they said, ``I don't believe you.'' And it's a one-sided 
discussion, very skeptical.
    But the second viewing, they were in love with the baker 
who is one of the candidates and a young woman who is a TV star 
in America. After a bit, they found out that the baker was 
actually coming to their country to speak, and it shifted the 
gears a lot for them, even though they didn't go to the 
meeting. And in the final debate, the attitude about the United 
States and its anti-Muslim theory was completely diverted.
    Now, not by every single person who saw it----
    Mr. Shays. And this is a government presentation?
    Ms. Beers. And it was clearly--although we said it's from 
the U.S. Government and the people of the United States.
    Because we're from the State Department, we have to explain 
everything. That was a very artificial situation; and what I 
think is important is to understand that underpinning--two 
things: Underpinning all of the rhetoric about the United 
States is a very real curiosity if you can approach it 
properly.
    And the second thing that's always in my mind is that you 
can be in Washington so long, you forget this. If you ask the 
people in the Muslim countries what are the No. 1, two and 
three things in their lives, they never mention foreign policy. 
What they talk about is my faith, my family, education for my 
children and ninth on that list is foreign affairs.
    So I always hold out the hope, since these people are our 
audiences, that we have a right to engage with them. What I 
don't disagree with ever is that we'll get there faster if we 
have partners like Keith's business circle, which is inspiring, 
because they've taken the initiative and they can go places we 
cannot go.
    On the other hand, we have to go together sometimes.
    Mr. Shays. Let me go to Dr. Zaharna.
    Dr. Zaharna. I want to say I agree with both, a more 
arching framework. Yes, Mr. Reinhard said the United States, it 
is the messenger and it's not credible, and that we're going to 
have the--I mean, theoretically, there's a big problem with 
that.
    But then also public diplomacy is the U.S. Government; 
that's its responsibility. Other people have other parts, but 
public diplomacy is inherently the government. I see it as the 
government's charge. But how to work together on that? That's 
the thing.
    I think the government can do more partnerships and also 
with local NGO's, working with international NGO's. Their most 
valuable possession is their credibility. If the United States 
links up with them, they're going to be afraid it's going to 
affect their credibility. But the United States can get extra 
mileage if it enhances the local--works with the local NGO's on 
the ground, does capacity-building or anything along that line.
    And working with American businesses, linking those two 
NGO's, an American NGO and a foreign NGO, and getting them to 
find private funding, such as an American corporation; they 
share the problems, they share the rewards, they build the 
links, and the United States gets the credibility.
    Mr. Knell. Mr. Chairman, Sesame Workshop is one of those 
NGO's that is trying to do, I guess, a version of public 
diplomacy called Muppet diplomacy, where we have been working 
around the world now in over 120 countries trying to promote 
issues around literacy and numeracy and respect and 
understanding and health and hygiene, and we've been very 
active in the Arab world.
    We have gotten good support from U.S. Government agencies 
like AID, but we've also gotten support from other governments, 
from Canada, from Holland, from the European Union, to help 
promote respect and understanding in the West Bank and in Gaza. 
And we are one of those NGO's, I think, as my colleague said, 
who can make a difference.
    And I have to tell you that it is about listening. It is 
about facilitating. Americans, like our group, 300 of us based 
in New York, who are working around the world trying to make a 
difference, it's about creative engagement as educators to 
intervene and promote universal values. And we have not really 
in any country in the world run into a huge obstacle that did 
not allow us to complete our mission.
    So we are engaged currently. We are in Afghanistan having 
dubbed programs----
    Mr. Shays. My time is up, and Mr. Tierney is here, so I 
want to make sure we go on.
    I'd like to have a second pass, Mr. Chairman, if I could, 
but all I hear you gentlemen saying is that we can't just 
depend on public diplomacy, that the private side can do a 
tremendous amount to present a case. But it strikes me that 
Secretary Beers isn't suggesting it only be public.
    And so, Dr. Zaharna, you are the great conciliator here who 
has brought us all together. Thank you for your comments.
    Thank you, Mr. Chairman.
    Mr. Turner. One of the questions that I have concerning Al 
Jazeera relates to the issues of the shared values that have 
been discussed, the issue of--so many people who have testified 
before us today talk about the concept of shared values and how 
America needs to portray more the common bonds and explain its 
policies. And I know that we may never agree on the issues of 
American policy.
    You might, of course, recall that discussion from our 
second panel, I read from--you had a September 26, 2003, 
interview where you were talking about the causes of September 
11th, and you reflected and said that--you cited the first Iraq 
war. We call that the ``liberation of Kuwait,'' and you 
referred to it as the ``first Iraq war.'' Many of those 
conflicts of policy we may not agree upon, but translating 
those conflicts or policies to global terrorism and the 
glorification of death and the suicide bombers and killing of 
others is something that I think that we can look to you as 
having a responsibility for.
    There have been allegations that you're cooperating with 
terrorists and terrorist organizations. At a minimum, there's 
been, certainly, the allegation that Al Jazeera glorifies the 
culture of death.
    You said you merely reflect the culture which you're 
representing, or your market; but I wanted to ask you about, 
you know, what is Al Jazeera's view of its role in global 
terrorism, where some view you as a facilitator? What do you 
view as your responsibility toward real stability in the world?
    Mr. Al-Mirazi. Thank you for your question. First of all, I 
would like to distinguish between two things, my own personal 
views, such as the one that you read in an interview that I 
made in September 2003 trying to explain to an interviewer, or 
an audience, what I would personally consider reasons or causes 
that may express the right to find for September 11.
    Going back to the Gulf war of 1991, or the liberation of 
the Kuwait war, or the first Iraq war, there are so many names 
of it, so if I choose one, it does not mean in any way 
eliminating the other or, again, as to another title for that 
war.
    And between that, my personal views that I can indulge in, 
if you would like me to speak about it, Al Jazeera itself, that 
is a station that is committed to presenting both sides of the 
story in any event, in covering the Arab-Israeli conflict. As I 
mentioned, we have Israeli officials, Israeli commentators 
speak, and we have Palestinians, regardless of their 
affiliation, also speak on the war against terrorism or the al 
Qaeda issue.
    We also allowed videotapes or statements made from people 
related to al Qaeda, as well as we are covering live and 
extensively--almost, I would say, more than 400 to 500 hours of 
President Bush's speeches, live, carried on Al Jazeera since 
September 11.
    If you maybe count all of Al Jazeera broadcasts since 
September 11 of the bin Laden tapes, it might not be more than 
5 hours in all its entirety, but people, of course, I would 
understand that they would say Al Jazeera, bin Laden, because 
they only heard the tape on Al Jazeera, but for them President 
Bush is available everywhere, so why should they mention Al 
Jazeera on it? The same way that people would say that the 
bomber manifesto was in the New York Times, that does not in 
any way mean that New York Times was collaborating with the 
bomber or trying to promote ideas of terrorists or the 
publisher of Timothy McVeigh's book about why did he do the 
terrible things in Oklahoma.
    And by the way, Timothy McVeigh was a soldier in Iraq in 
the first Iraq war, or the 1991 war, and I believe at some 
point in his book mentioned that he learned how it's easy to 
kill people during that war.
    The Washington sniper was a veteran or someone who was in 
the 1991 war, and when I mentioned the 1991 war, I mentioned 
that also the violence and the war creates violence and 
destabilization, and that could be one of the reasons.
    If you would like me to focus on one thing, I would like to 
say that just the message and the mission of Al Jazeera is 
represented very clearly in our motto, ``the opinion and the 
other opinion,'' or the opposite opinion, and we have been 
faithful to that. And also we have been criticized harshly, 
first in the region and now in the United States--or after 
September 11, the United States--for that reason, bringing both 
sides of the story and asking people, please do not shoot the 
messenger if you don't like the message.
    Mr. Turner. Secretary Beers, the shared-values programming 
that you had put together is an attempt to communicate, if you 
will, a relationship and include, of course, an antiterror 
message or antiterror goal.
    Our committee has information that Al Jazeera refused to 
carry those. Is that correct or is that inaccurate?
    Ms. Beers. Well, I think what happened is--I'm sorry to 
repeat this, but the word came back to me that Al Jazeera had 
moved their rate up to double the normal rate because it was 
``hazardous material''--I'm not sure it was put quite like 
that--and we were refused in a number of governments. But in 
this case, I think it was, we fought the very disproportionate 
rate and we had it covered with some other networks. So I think 
we didn't go on it.
    I'm not so sure that they said ``no'' to us, and I'm 
working from a memory there. Perhaps you know.
    Mr. Al-Mirazi. May I comment on that?
    Mr. Turner. Please.
    Mr. Al-Mirazi. Because it came to our attention that 
complaint from a colleague at the State Department working in 
public diplomacy, and at that time there was a visit by the 
general manager of Al Jazeera in Washington, and when he heard 
that, he was outraged and made some phone calls.
    We found out that the person that was contacted, the 
advertising agent in the region, who was the one who told the 
people who carried the advertisement that ``I could buy for you 
more time on Al Jazeera for that money'' and convinced them not 
to go to Al Jazeera, but they could get more time for their 
money than going to Al Jazeera, but not Al Jazeera declined it.
    Al Jazeera actually until now put in advertisement that I 
would say even glorified or put very positive spin on the Iraqi 
interim constitution, or interim law, many other things; and we 
are welcome even if someone would like to bring these ads back. 
We'll welcome them, but I think they might need to be updated, 
because some of the people featured in these ads, I believe, 
have been harassed by FBI agents or had some bad experience 
after September 11. So maybe they need to update it.
    Thank you.
    Mr. Turner. Secretary Beers, you look like you're wanting 
to comment.
    Ms. Beers. No. I'm just sorry. I didn't know what he said 
about the FBI agent.
    Mr. Turner. Do you want to expound on that?
    Mr. Al-Mirazi. I'm saying that the more also we promote the 
stories of Arab Americans, and we do promote these stories--
last Thanksgiving, for example, I host a talk show from 
Washington, and in that talk show, I brought a story of in 
Wayne, Michigan, which I said, let's do news on Thanksgiving in 
America, let's explain that this guy won a mayoral election 
while he had only two Arab American families in Wayne, 
Michigan, and that was in November 2001, immediately after 
September 11, yet people in Wayne choose this guy. So we are 
not short of putting positive things in America.
    But the problem also that you follow, what happened to Arab 
Americans. Since the last 2 months, the FBI has been rounding 
and meeting and interviewing Arab Americans, just to interview 
them, ask about their views, their religious beliefs; and the 
excuse for that has been in order--just to remind people that 
we are there or collect information as preventive measures.
    These things also does affect American image, as well as 
the Census Bureau when they were asked by the Homeland Security 
to give us information about all the Arabs living in a ZIP 
code, more than 1,000 Arabs in any one ZIP code that have more 
than 1,000 Arabs, give us the names, and that was a reminder 
for people to what happened in World War II. And thanks to 
Homeland Security people, the civil rights officer was in Al 
Jazeera in my show and explained things. And I believe they 
promised to correct the matter.
    So sometimes the experience of Arab Americans has to be 
reflected in order to give credibility to the message, but if 
it's on an advertisement, we don't have to ask you to do 
whatever. We will broadcast it as advertisement.
    Mr. Turner. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I thank the witnesses 
for their testimony.
    There are some who say that no matter how good we get at 
public diplomacy, or think we are getting at it, that we won't 
be really good at it in this area of the world unless we learn 
to listen better, enhance listening skills.
    Would each of you tell me whether or not you think that the 
United States is, in fact, listening to people in this region 
of the world? If not, how would we enhance those skills and 
proceed from there? We'll start with Mr. Al-Mirazi.
    Mr. Al-Mirazi. As I mentioned, the interaction is very 
important. It's very important to engage U.S. policymakers in 
Arab media interviews and in talking to the Arab people, 
because it gives them a chance in order to answer questions, to 
take questions.
    And that is pretty important just not to make it a 
monologue, because we carry a lot of press conferences as 
monologue. But in order to answer questions and to be sincere, 
maybe to take it back and digest it and in a weekly meeting say 
we heard that and we couldn't have an answer, a good answer. 
And just give the example of the Homeland Security or the 
Census Bureau. We had someone from Homeland Security. The 
second day, immediately, we had a meeting with Arab Americans 
and they almost like regret what happened, and said that has to 
be corrected in a very sensitive manner in the future.
    I think as you mentioned, sir, listening is very important. 
And as we are talking about review of U.S. intelligence, review 
of many other things, I think review of U.S. foreign policy in 
the region is important. And we should not deal with foreign 
policy as if it is something on the side. Foreign policy means 
a domestic policy for people who are at the receiving end in 
the Middle East, whether they are Iraqis or Palestinians or 
Egyptians.
    Mr. Tierney. Thank you, Doctor.
    Dr. Zaharna. Are we listening? No. Because if we were--
there is one thing in all of this. The Palestinian Israeli 
keeps coming up, and now the situation in Iraq, and Najaf now, 
what is going on in the religious site. Before, there was the 
superpower rivalry and there was the nuclear threat and 
everybody looked at that. Now that is gone, these foreign 
policy issues have become like the glaring spotlight. And if we 
were listening, we would have heard and done things maybe 
differently.
    And if we have a security problem here in the United 
States, America's allies in the region are sitting on a more 
dangerous security problem by not addressing the foreign policy 
issues.
    Mr. Tierney. What do you think we would have heard?
    Dr. Zaharna. What we would have learned?
    Mr. Tierney. What we would have heard if we were listening.
    Dr. Zaharna. Oh, my goodness, the military in the region. 
The American military, these are the young--this was America's 
best face. Young American people being in the region. And some 
of the actions that were conducted out of cultural ignorance 
and cultural sensitivity have tarnished and bruised more than 
anything. And that is the biggest thing. They are the face of 
the American public diplomacy.
    Mr. Tierney. Mr. Reinhard.
    Mr. Reinhard. We talked to people on the streets in 130 
countries. And this was a question--leading the witness 
obviously, because we asked them for advice on what they would 
give to Americans traveling abroad. But the two most frequently 
recurring words were ``listen'' and ``respect.'' And some of 
the quotes: Learn to listen instead of talking all the time. 
And then they went on to say, and if you must talk all the 
time, would you please lower the volume. Stop comparing 
everything we do to the way you do it. If you can't stop 
talking, turn down the volume, I mentioned. You might try 
learning a few words in our language. The Superbowl does not 
mean much to us. If we had an athletic competition called the 
World Series, it would occur to us to invite other nations, and 
on and on.
    And then, some verbatims about the negative perceptions. 
The ones I had on the screen about the insensitivity to 
cultural differences and the supreme arrogance which kept 
coming through was that our assumption is that they want to be 
exactly like us. I think one of our--I am in the advertising 
business and one of our big multinational clients spends $30 
million on research. That is no human resources, no capital, 
just $30 million on research around the world to win friends 
for their brand.
    I believe the Federal Government spends something like $5 
million.
    Mr. Knell. We can listen better and unleash creativity 
more. I think we can connect around children. This is not just 
a news ping-pong match, even though it sometimes turns out that 
way. Education and culture as was mentioned before is really 
important. In Egypt, when we did Alam Simsim the Egyptian 
``Sesame Street,'' this is a local show. They chose to promote 
girls' education and health and hygiene. That was not us 
dictating to them. And in the West Bank, our Palestinian 
partners tell us that the biggest problem for the average 
person is boredom. They are unemployed. They cannot leave their 
houses. They're blockaded from traveling to visit relatives.
    So what are they doing? They are watching television. What 
are they watching? We have heard about some of that today. So 
being able to give them some of the resources and the 
technology to promote positive values about their own cultures 
and self-esteem and to create empathy is something that we are 
doing and other people are trying to do. And I would encourage 
the committee to think about how our government can help 
promote some of those things in the private sector moving 
forward.
    Mr. Tierney. Thank you. Secretary Beers.
    Ms. Beers. In the goals that I started with, which I think 
is modest compared to how we would like to approach our 
relationship with the Middle East, I talk about mutual 
understanding. And you really can't get there unless you have a 
reasonable comprehension and empathy with whom you are 
attempting to speak. And this is kind of a golden rule for all 
communication.
    But in addition to understanding that, you have to be 
prepared for some kinds of action, some kinds of programs or 
exchanges that activate. That is why I like so much the picture 
of the teenager in Cairo being able to talk to whomever he 
chooses in Idaho. Because what happens there has its own 
chemistry. And it is not so artificial. I know that any program 
we put together, whether it is in the private sector or 
something the government manages to put on the table that is 
people to people, there is a kind of kinetic energy and 
chemistry that takes place there.
    So it is listening and also being prepared to take part in 
a responsible exchange and action.
    Mr. Tierney. I take somewhat from this there is general 
agreement on the panel that the Commission's report 
recommending that we rebuild scholarship exchange and library 
programs reaching out to young people is right on the money. 
General agreement on that? Not?
    Ms. Beers. No, I'm sorry, I do agree with those things. 
They are vital, and that is why we are always quoting to you 
how many people in the world affairs came and studied here and 
now they are leaders. We're doing a very good job with the 
elite and leaders. But you can't stop there. I am concerned 
that you will think we mean just expand those programs.
    In my mind, if you can't take those ideas of education, 
school, using the local television just like Sesame has done, 
you are not going to get enough reach nor will you make enough 
impact. So it is a modification.
    Mr. Tierney. OK. I accept that. Anybody else?
    Mr. Reinhard. I would second that. And I would also add 
that in your invitation you quoted from the 9/11 report that 
bin Laden has nothing to offer but death and violence, and we 
have to offer hope of a brighter future. I would respectfully 
suggest that bin Laden has quite a bit to offer to these 
people, which is the word we kept hearing in our listening: 
respect and dignity. Which he can grant. And if we can take our 
vision of hope and a brighter future and make it real, as 
Secretary Beers and Mr. Knell said, by building bridges through 
this shared value of learning and education, that would be a 
very, very good place to start.
    Mr. Tierney. Thank you. Mr. Chairman, you had an 
interjection you wanted to make? I yield.
    Mr. Shays. Thank you for yielding, but it has changed. Is 
that all right? What you said to me is stunning in a way, but, 
regretfully, very true. And I would love to get Al-Jazeera's 
take on this as well. When I was in Iraq, I had more Iraqis 
say, ``Thank you for getting rid of Saddam Hussein,'' and 
``When are you leaving?'' in the same sentence. There is this 
wonderful poll that said two-thirds wanted us to stay and two-
thirds wanted us to leave.
    But what struck me was--and it seemed reasonable, when you 
think about it, is reasonable. We did not want it to be a 
French revolution. In our Revolutionary War, we wanted it to be 
the American Revolution. So I found that they were very proud 
people.
    The little things that we did that we think were 
inconsequential were huge to them. And then all these wonderful 
things we did just seemed meaningless. I think that you have 
done something--you've got the first criticism of this report 
that I basically can accept. Because your comment was ``the 
only thing he has to offer is,'' and I accepted that and I 
believe it on one level. But on another level, he promises them 
something that they don't seem to feel from us, and that is 
dignity and respect. People were willing to lose their lives 
for that, which is obscene to me.
    What is your take on this as you hear this, Mr. Al-Mirazi?
    Mr. Al-Mirazi. Mr. Chairman, if we would look to 
criticizing the whole report, I would also mention that there 
is a failure when it comes to United States help and details of 
United States help to al Qaeda or the founders of al Qaeda in 
Afghanistan. The people who originated it, who used to be 
called in the Arab world the Arab Afghanis, the people who 
fought the Afghani war against the Russians. And the report 
just mentioned very passing sentences about the United States, 
Pakistan, and Saudis.
    Mr. Shays. You would like to be very clear. In other words, 
we supported the very elements that--OK.
    Mr. Al-Mirazi. Exactly. Exactly, sir. And that is the need 
for a review of U.S. foreign policy, not just to say that we 
need more scholarships. That is nice. That is important. We 
can't say that scholarships are not going to be helpful. Of 
course it will. But the damage is still there. And during the 
cold war and Voice of America that I did work for before, and 
other in the United States, the Saudi Arabia role has been 
mentioned that they were only involved in building mosques in 
the former Yugoslavia. Yes, they were building mosques with the 
help of the United States. They were distributing copies of the 
holy Koran with the support of the United States because they 
were trying to beat communism and they were helping and 
supporting fundamentalism in the Arab world.
    Someone quoted Mr. Casey, Bill Casey of the CIA, the CIA 
Director, as saying the more fundamentalists they give me in 
Afghanistan the better, because they kill more communists.
    So we supported that brand. The United States supported 
that brand. The United States used the Islamic religion in 
order to conquer the Soviet Union, and now we are talking about 
madrassa. Madrassa, by the way, just means a school in Arabic. 
It is a religious schools. And when people in the Arab and the 
Muslim world hear U.S. officials attacking madrassa just by the 
word madrassa, it means for them as if someone is attacking in 
the Arab world Christian schools or charter schools.
    So we also have to find out exactly what do we mean and 
what exactly are we talking about. And let's compare. The 
Palestinians have raised that issue before, when we told them 
we need to look into hatred in your textbooks. And many people 
said we would like to look into hatred not only in Palestinian 
textbooks and Israeli textbooks, but look into hatred or 
antiIslamic statements in the U.S. media as well as in the Arab 
media, or the other way around.
    This comprehensive view, the clear condemnation of both 
killing any innocent, whether that innocent is a Palestinian or 
that innocent is an Israeli, is very helpful. Be consistent. 
And as to the values of the United States, I don't think that 
the Arabs or the Muslims have different values than the 
Americans. These are human values. People have taken every 
generation and adding to it and enhancing to it.
    So if we stand for liberty and justice for all, the 
Palestinians will tell you, how about liberty for us? Why it 
was not difficult for you to keep Iraq occupation for 8 months 
under Saddam and it is fine for to you keep Israeli occupation 
for more than 56 years. And you have to find answers for them.
    And this is what we are talking about. Engaging in dialog 
and really sitting down and reevaluating U.S. foreign policy 
toward the Arab and Muslim world. Not because of September 11, 
but just because we need it.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Shays. Did you want to make a comment?
    Dr. Zaharna. What Mr. Reinhard brought up about the appeal 
of bin Laden.
    Mr. Shays. It is my intention to end this hearing in 5 
minutes.
    Dr. Zaharna. Oh, I am done.
    Mr. Shays. No, no, it is just that I want people to know so 
they can judge their time and so on. But I want you to say 
whatever you want, and I want other people to as well.
    Dr. Zaharna. Islam, when he put what does he have to appeal 
and he said human dignity and respect, it hit me today, I 
thought this thing from the Council of Muslim is very 
important. Bin Laden is getting a lot of mileage by the United 
States calling it Islamism. Because Islam is my religion also 
and I have read a ton of reports. I can't distinguish between 
Islamism, fundamentalism, and extremism. It is the same. And no 
matter how you slice it or dice it, they will hear it that way.
    Mr. Shays. What do you call it? You can't call it----
    Dr. Zaharna. I think the Commission did a great thing by 
narrowing from terrorism to al Qaeda and then get it away from 
religion. And I have read a lot of reports, too, in the Arab 
world and the Muslim world they are not distinguishing it 
either. It's an important thing.
    Mr. Shays. The reality is, it is not Japanese.
    Dr. Zaharna. Japan is a country.
    Mr. Shays. It is not Hindus that are basically attacking 
the United States right now. It is a particular group that is 
very narrow among a particular religious belief. And you know, 
that is the reality. That is what it is. You are saying in 
facing reality, it is offensive.
    Dr. Zaharna. He is getting mileage from it. And as the 9/11 
Commission said several, several times it is a very, very small 
group. The Commission did a great job by taking terrorism and 
narrowing it. The more we can narrow it, the stronger that is 
going to be. And they debate it but it just hit me today, this 
does get him a lot of mileage.
    Mr. Shays. Fair enough. And it is important for us to know 
that. Go ahead. If you have something to contribute, the last 
thing I want to do is stop you. What else did you want to say?
    Dr. Zaharna. That is it.
    Mr. Al-Mirazi. Just to second what she said, I know it is 
easier for an audience to identify with something. But it is 
also risky and we have to consider that. I heard a lot of 
feedback, negative one when the word Islamic and Islamic 
terrorist were put in the Commission. We cut live to the 
Commission when they finished reporting it and using words like 
``al Qaeda'' or ``bin Laden followers'' or something like that, 
it is clear. The same way we are talking about the IRA, not the 
Catholic Irish, regardless of how many Catholic Irish would 
identify with the IRA. But we say it is the IRA and I think it 
is very important to do that. Because you have also Jewish 
terrorists who are on the list of terrorist organizations of 
the State Department, but we do not use that.
    Mr. Shays. And I agree with what you are saying, yet I 
wrestle with this. They use as their basis their Islamic faith.
    Dr. Zaharna. And the United States is giving them extra 
mileage.
    Mr. Al-Mirazi. And Muslims in Nigeria, for example, saying 
Muslims. So people in Nigeria understand it, and people in the 
Arab world understand and they can distinguish Islamists, 
Because those people carry the Islamic banner. But when you 
take it to a Western audience and send it back to the Arab 
world or the Muslim world, it would sound for them as if you 
were talking about the whole Islam. But if it is indigenous, 
people say Islamists, Islamist does not mean Muslim, but it 
would be lost in translation.
    Mr. Shays. It is absolutely essential we know what it 
means. And if we are going to talk about winning hearts and 
minds, and that's what it means, however helpful it may mean to 
us, it is often going to have a huge negative. Would you have 
any comment on this, Secretary Beers?
    Ms. Beers. I think that we tried to be very careful about 
that word and we have used sometimes the word ``radical'' as a 
way of defining the extreme end that happens in any religious 
endeavor. There is always a small group at the very end of it 
that are more radical and create a different response to the 
whole religious practice. I do not have a solution, and I don't 
know what anyone would offer us in a way of a proper word.
    Dr. Zaharna. A political name?
    Ms. Beers. Just a name we can use in communication.
    Mr. Shays. The bottom line is you have told us what we 
can't do; I am not sure what we can do, and that is basically 
your point. One of the values of the Commission was that we 
need to know who we consider the terrorists and what do we call 
them, and I am guilty of saying a war on terror, and as one 
commissioner said, that is like taking Pearl Harbor and saying 
a war against the Zero airplane, which was the vehicle through 
which Pearl Harbor was implemented, the use of that aircraft. 
But I do not say a war on Zeroes.
    So it is something, I guess, that we are all going to have 
to sort out: What is the name that means something that is 
helpful to us in knowing who ultimately we have to deal with, 
but doing it in a way that does not come across to an entire 
world population as a huge negative. Anyway.
    Do you have any last questions? Is there anything you would 
like to put on the record? Any of you? Yes?
    Ms. Beers. Outside the debate we had about when to activate 
the government as messenger, I would like to say for the record 
that Keith Reinhard, whom I have known him for 35 years.
    Mr. Reinhard. And I have known you for 35 years.
    Mr. Shays. Maybe there is something you want to keep 
private here.
    Mr. Knell. Sesame Street is in the middle.
    Ms. Beers. This is not easy to be interrupted. I am trying 
to say something good about him. I have never succeeded yet. 
For the record, Mr. Reinhard has provided the most remarkable 
leadership I have ever seen in that organization that came to 
life under his jurisdiction about a year and a half ago. These 
people did not exist. He brought together the most elite team 
imaginable. There are people who do not have time to do 
anything, and they show up and they work with him and they are 
going to do something remarkable on behalf of our country. And 
I just hope they get the recognition about that.
    Mr. Shays. Secretary Beers, let me just say to you that 
your service to our country, and your contribution to this 
committee, is very appreciated. You have been a wonderful 
servant to America, and we appreciate it more than you can 
imagine.
    Ms. Beers. Thank you. Thank you.
    Mr. Shays. I would like to ask if anyone else has any 
comment?
    Mr. Reinhard. One thing. I actually had three pages about 
how highly I regard Secretary Beers, but in the interest of 
time I will just publish that for you.
    Mr. Shays. You sound a little bit not sincere.
    Mr. Reinhard. Oh, no. Oh, no.
    Ms. Beers. We met in church. He would have to be.
    Mr. Reinhard. We are very close friends. We were talking 
about listening and we have also been talking about messages. 
And the best advice I ever received on the subject is, you 
don't learn anything by talking. And I really think we have to 
keep that in mind.
    And what Professor Zurgis, how he envisages this. He talked 
about the floating bloc of young people in Iran. And according 
to him, they haven't made up their mind yet whether to buy the 
mullah's brand or the Western brand. It is essential that we 
make our ideas, which stem from their needs, their shared 
values, sensible to them, however we do that.
    And the last thing I would like to say, Mr. Chairman, is a 
quote from one of our young staffers in Cairo. And I believe 
that he gives us really good advice for a mind-set that we 
should bring to this discussion. He says, in investment America 
must be presented as the facilitator, not the patron. In the 
realm of charity, as the partner, not the philanthropist. And 
in business endeavors, as the courier of progress, and not the 
preachers of Westernization.
    If we can all become couriers of progress, I think we will 
make great progress for our country.
    Mr. Shays. That is a nice way to end up. I would be happy 
to have both of you make a comment if you would like.
    Dr. Zaharna. Thank you.
    Mr. Al-Mirazi. The first thing I would hope and renew my 
request for interviews for Al-Jazeera with the three of you, 
and we would be grateful and glad. That would help promote 
United States and articulate U.S. policies and U.S. views to 
the Arab world with no expense to taxpayers, unlike Alhurra 
Television.
    And just to correct for the record, in the previous panel 
we were criticized by one of the speakers and the panelists as 
comparing Al-Jazeera to the National Enquirer. The harshest 
critics of Al-Jazeera compared it to Fox News, but here I got 
emotional being compared to National Enquirer.
    Mr. Shays. This is the first time I have seen you smile 
today.
    Mr. Al-Mirazi. Thank you. Let me just for the record--and I 
would like anyone to have the commission, independent 
commission to compare Al-Jazeera Washington Bureau coverage of 
U.S. foreign policy and U.S. policies in general compared to 
the U.S. Alhurra Television. We have started since the 
primaries in January, a weekly 1-hour election show to explain 
to our audience every Tuesday and rerun twice again what the 
U.S. political system means.
    Mr. Shays. You are actually able to explain that? I should 
watch.
    Mr. Al-Mirazi. And Alhurra just started like 2 weeks to go 
do something like us to follow.
    Mr. Shays. Competition is good. You took the lead and they 
are following. The one thing I have been encouraging our 
government to have Alhurra, but I think it will help you be 
better and them be better. They only have credibility if they 
tell the truth. And what I had is one or two individuals call 
me up from the media, criticizing something that they were 
doing that seemed antiAmerican. And I said if that is what 
happened, that needs to be said for their credibility. They had 
people on the program that others wondered whether they should 
have on the program. I realize there are a lot of questions.
    Mr. Al-Mirazi. And I agree with you, sir. The more the 
merrier, and it is not a zero-sum game. Funding Alhurra doesn't 
mean you're cutting Al-Jazeera or the other media.
    Mr. Shays. We are looking forward to a continued dialog, 
and you all helped us understand all of this better. And 
ultimately this, if not more, certainly equal to all the other 
efforts that we have in our government. We are not going to 
succeed unless we do better with public diplomacy and also 
improve our public policy.
    Thank you all very much. This hearing is adjourned without 
a gavel.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8211.141

[GRAPHIC] [TIFF OMITTED] T8211.142

[GRAPHIC] [TIFF OMITTED] T8211.143

[GRAPHIC] [TIFF OMITTED] T8211.144

[GRAPHIC] [TIFF OMITTED] T8211.145

[GRAPHIC] [TIFF OMITTED] T8211.146

[GRAPHIC] [TIFF OMITTED] T8211.147

                                 <all>

</pre></body></html>
